         Factor
         F    rs Afffectin
                         ng Im
                             mplem
                                 mentaation
         of
         o thee Harrdest Hit
                         H F Fund Program




                                          Aprril 12, 2012
S
SIGTARP 12--002
                      Off
                        fice of th
                                 he specia
                                         al inspect
                                                  tor gene
                                                         eral
                          For the Tr
                                   roubled As
                                            sset Relief
                                                      f Program
                                                              m
                                      1801 L Street
                                                  t, NW, 4th floo
                                                                or
                                        Washington
                                                 n, D.C. 20220
 


                                            April 12, 2012


M
MEMORAN
      NDUM FOR:               Mr. Tim
                                    mothy Massad    d – Assistannt Secretary ffor
                              Financiaal Stability, Department
                                                    D            of the Treasury
                               
F
FROM:                         Ms. Chriisty L. Romeero – Speciaal Inspector G
                                                                           General
                              for the Troubled
                                      T        Assset Relief Prrogram

S
SUBJECT:                      Factors Affecting
                                      A         Im
                                                 mplementatioon of the Harrdest Hit Fuund Program
                              (SIGTAR RP 12-002)


WWe are proviiding this rep
                          port for yourr information
                                                   n and use. IIt discusses tthe Factors A
                                                                                         Affecting
IImplementattion of the Hardest
                         H       Hit Fund Program m.
 
TThe Office of
            o the Speciaal Inspector General
                                     G         for the
                                                    t Troubledd Asset Relieef Program cconducted thhis audit
((engagementt code 022), under the auuthority of Public
                                                  P       Law 1 10-343, as aamended, whhich also
incorporates the duties an
                         nd responsibbilities of insspectors genneral under thhe Inspectorr General Acct of
11978, as ameended.

WWe considerred commentts from the Department
                                    D            of
                                                 o the Treasuury when preparing the rreport. Treaasury’s
ccomments arre addressed in the reporrt, where app
                                                 plicable, andd a copy of T
                                                                          Treasury’s reesponse is inncluded
in Appendix L.

WWe appreciate the courteesies extendeed to our stafff. For addittional inform
                                                                             mation on thhis report, pleease
ccontact Mr. Kurt
             K Hyde, Deputy
                         D        Speccial Inspecto
                                                  or General foor Audit and Evaluation
((Kurt.Hyde@@treasury.go ov / 202-622-4633), or Ms.
                                                  M Kimberleey A. Caprioo, Assistant D    Deputy Speccial
IInspector Geeneral for Au
                         udit and Evaaluation (Kimm.Caprio@trreasury.gov / 202-927-89978).




                                                                                             April 12, 2012
F
Factors Affecting
        A         Implementation
o
of the Hardest Hit Fund Pro
                          ogram
 


S
Summa
    ary                                               Wha
                                                        at SIGTAR
                                                                RP Found
In authorizing the Troubled   d Asset Relieff
                                                      A sennior Treasury official told SSIGTARP thatt
PProgram (“TA ARP”), Congre   ess explicitly stated
                                             s
                                                      the id
                                                           dea of the Harrdest Hit Fund   d came from
that one purpo ose of TARP was to preserve
                                                      an ovverall examina  ation of option
                                                                                         ns to tackle
hhomeownersh   hip. In early 2010,
                              2      despite U.S.
                                                      home e foreclosure economic cha     allenges such
                                                                                                      h
GGovernment programs
               p           to address
                              a        the
                                                      as neegative equityy and unemplo   oyment not
fo
 foreclosure crrisis such as TARP’s
                              T        Home  e
                                                      beingg addressed b  by TARP’s ho  ousing
AAffordable Mo odification Proogram (“HAMP”),
                                                      progrram HAMP. T    The Treasury official told
hhomeowners still faced a housing
                              h        marke et
                                                      SIGTTARP that at tthe end of 200   09 (when HHF
uunder significa
               ant stress. OnO
                                                      was bbeing develop  ped), unemplo  oyment was
FFebruary 19, 2010,
                2      the Adm ministration
                                                      hoverring around 9 9% and one in   n four homes
aannounced the Housing Fin     nance Agenc  cy
                                                      was uunderwater. A   After two yeaars, the
Innovation Fund for the Ha    ardest Hit Hou using
                                                      Harde est Hit Fund h has experiencced significannt
MMarkets (the “Hardest
               “          Hit Fund,”
                              F       or “HHF”).
                                                      delayy in providing help to home   eowners due tto
UUnder HHF, TARP
              T       dollars would fund
                                                      severral factors inccluding a lack of
“innovative me  easures” developed by sta    ate
                                                      comp prehensive pla  anning by Tre easury and a
hhousing financ ce agencies (“HFAs”)
                               (         and
                                                                         on in participation in the
                                                      delayy and limitatio
aapproved by Treasury
               T          to heelp families in
                                             n the
                                                      progrram by large sservicers and  d the
sstates that havve been hit thhe hardest by y the
                                                      Gove ernment-sponsored enterprises (“GSEs””)
aaftermath of th
               he housing bu   ubble.
                                                      (Fannnie Mae and F   Freddie Mac)). As of
                                                      Dece ember 31, 201  11, the latest data availablee,
OOriginally annnounced as a $1.5 billion TARP
                                          T
                                                      the H
                                                          Hardest Hit Fu  und has spentt only
pprogram for fivve states with
                             h home price
                                                      $217 .4 million to pprovide assisttance to
ddeclines greatter than 20%,, HHF grew to  o
                                                      30,6440 homeowne    ers – approxim mately 3% of
$$7.6 billion to 18 states and
                             d the District of
                                            o
                                                      the TA
                                                          TARP funds alllocated to HH    HF and
CColumbia thro  ough four roun
                             nds of funding g.
                                                      approoximately 7% of the minimum number o       of
TTreasury apprroved HHF prrograms in fiv   ve
                                                      home eowners whom    m the state HHFAs estimate e
ccategories of assistance: (1)
                             ( principal
                                                      helpinng over the liffe of the prog
                                                                                        gram, which
rreduction; (2) second-lien reduction
                             r          or payoff;
                                           p
                                                      ends in 2017.
(3) reinstatem ment through payment
                             p         of pa
                                           ast
ddue amounts; (4) unemploy    yment or
                                                      Nearlly all (98%) off the help pro
                                                                                       ovided to
uunderemploym   ment assistannce; or
                                                      home  eowners unde  er the Hardesst Hit Fund ha as
(5) transition assistance
                a           su
                             uch as a shortt sale,
                                                      been related to un nemployment assistance or
ddeed-in-lieu of foreclosure, or relocationn
                                                      reinsttatement of ppast due amou  unts, the onlyy
aassistance.
                                                      typess of assistanc e for which th
                                                                                       he GSEs
                                                      directted servicers to participate
                                                                                       e. The great
AAs part of the Office of the Special Inspe
                                          ector
                                                      bulk ((78%) of the H HHF help to hhomeowners
GGeneral for th
              he Troubled Asset
                            A      Relief
                                                      has bbeen for unem mployment asssistance.
PProgram’s (“SSIGTARP”) co  ontinuing overrsight
                                                      Unlesss there is a ddrastic change in the
oof TARP and in response to a request frrom
                                                      assis tance the GS SEs and their conservator,
CCongressman  n Darrell Issa, SIGTARP
                                                      the F ederal Housin  ng Finance AAgency, will
pperformed a review of Trea  asury’s
                                                      suppo ort, the Hardeest Hit Fund mmay be much
ddecision making related to HHF. SIGTA    ARP
                                                      narroower in scope and scale tha  an what was
aassessed whe  ether Treasurry applied
                                                      origin
                                                           nally expected d due to the la
                                                                                        ack of service er
cconsistent andd transparentt criteria in
                                                      and G GSE support ffor certain proograms.
sselecting the states
               s       and pro
                             ograms, asse essed
                                                      Witho out significantt change, while the Hardesst
the extent to which
               w      Treasury determined d that
                                                      Hit Fuund may be a  able to reach unemployed
the programs were innovattive and not
                                                      home  eowners as w was originally intended, it iss
dduplicative of existing programs, and
                                                      likely to be limited in addressingg negative
id
 dentified Treaasury goals and metrics for the
                                                      equityy for homeow wners who are  e underwater..
pprogram.

                                                                                            April 12, 2012
F
Factors Affecting
        A         Implementation
o
of the Hardest Hit Fund Pro
                          ogram
 
 
SSIGTARP found that Treas      sury consisten ntly     As off December 3  31, 2011, the 19 HFAs
aapplied its critteria to choosse states to            collecctively estima
                                                                          ate helping be etween
p                t first three rounds of fun
 participate in the                           nding    458,6 632 and 486,5 536 homeown    ners over the
fo
 for HHF. How  wever, in the second
                                s       roundd, it     lifetim
                                                             me of HHF, wh  hich will end in 2017.
w              w Treasury determined that
 was unclear why                                       Treassury has not a adopted this e estimate or
sstates with higgh percentage   es of their            even reported it. IIt is not too la
                                                                                         ate for
ppopulation in counties
                 c          with an unemploy  yment    Treassury to set me easurable goa  als, including
rrate greater th
               han 12% were     e economically         at a mminimum, ado opting the HFAs’ collective  e
ddistressed, buut that states with
                                w 11%                  estimmate or develooping its own goal of how
uunemploymen   nt were not. The T cutoff for           manyy homeownerrs Treasury exxpects HHF to       o
TTreasury’s selection of stattes in Round Two          help. Treasury ca  an also do mo  ore to improvee
wwas not transp  parent because one perce    entage    transp parency by publishing agg  gregate
ppoint divided Ohio
                 O      (with 22% of its popuulation   informmation on thee program, and other usefu   ul
liiving in countties with a greeater than 12% %        informmation, so tha
                                                                          at taxpayers d do not have to o
uunemploymen   nt rate), which h was selected,         track performance  e on 19 HFA w  websites.
vversus Tennessee (with 21     1%), which wa  as not   Desp  pite Treasury’ss statement aabout state
sselected until five months later, when                HFAss – “This is noot our program m. These are
TTreasury mad  de another rou   und of fundingg to     their pprograms.” – HHF is a TARP program,
aall states with above-avera   age unemploy  yment.    and T Treasury is th e steward ovver TARP.
FFor the fourth round, no ne   ew states were
sselected. Ratther, Treasury    y nearly doubbled      SIGTTARP found th   hat several faactors
the funds fourr days before the expiration    n of     contr ibuted to the Hardest Hit F  Fund’s
TTreasury’s TA ARP investme    ent authority.          signifficant delay in
                                                                           n getting assisstance to
                                                       home eowners. HHF lacked com      mprehensive
T
Treasury dete   ermined that the five catego ories     plannning by Treasury, which russhed out the
of assistance it approved were
o                             w      complian
                                            nt with    progrram without a appropriate co  ollaboration off
T
TARP’s requirrement that programs prev      vent       key sstakeholders. Treasury’s d    decision to
a
avoidable fore  eclosures and d rejected other         give oone to two da ays’ notice to states and sixx
p
proposed prog   grams for nott having a sufffficient   to eig
                                                            ght weeks to d develop progrrams caught
liink to this req
                quirement. Trreasury did no  ot        severral states off gguard. Severral states
d
define “innova  ative” or perfo
                              orm an analys sis of     delayyed HHF prog   grams becausse the large
w
whether the proposed prog     grams were               mortggage servicerrs were not pa   articipating.
innnovative or duplicative
                 d           off other programs,       Seve ral HFAs told  d SIGTARP th   hat their
innstead consid dering the proogram design to be       primaary challenge was the lackk of large
innnovative bec cause it provides for locallyy         serviccer participatiion. Without large
tailored solutioons.                                   serviccers, the HFA As could not rreach a large
                                                       portio
                                                            on of strugglinng homeowne    ers. One HFA  A
TTreasury has not set meas    surable goals and        explaained, “Withou ut big servicers, it would
mmetrics that would
              w      allow Trreasury, the public,
                                             p         take mmuch, much llonger to get the funds outt,
aand Congress  s to measure the progress and           with j ust communitty banks and credit unionss.
ssuccess of HH HF. Treasury   y set a single goal      It wouuld be a trickle of eligible a
                                                                                          applicants.”
fo
 for HHF: to help prevent fo   oreclosures and
ppreserve hom meownership. Treasury doe       es       One g great shortco oming in HHF’’s
rrequire states to estimate thet number off            impleementation wa   as Treasury’ss lack of timelyy
hhouseholds too be assisted by their HHF               actionn to enlist larg
                                                                            ge servicer su upport for andd
pprograms, butt this number has limited                particcipation in sta
                                                                           ate HHF progrrams while
uusefulness beecause states can, and hav      ve,      leavinng it to the HFFAs to negotia ate with
cchanged estimmates, creatin  ng a shifting            serviccers. Treasury failed to re ecognize the
bbaseline that makes
               m       it diffic
                               cult to measure         lack oof bargaining power that sttates had for
pperformance against
               a        expec  ctations. The e         recru iting servicerss. A Florida H HFA official
sstates’ estima
              ated number of   o homeowners to         explaained to SIGT  TARP, “The on   ne billion
bbe assisted byy the Hardestt Hit Fund has   s         dollarrs has been a nice carrot tto use for
ssteadily decre
              eased over the    e last year.           serviccers in Floridaa, but there iss no stick with
                                                                                                         h


                                                                                                     Aprril 12, 2012
F
Factors Affecting
        A         Implementation
o
of the Hardest Hit Fund Pro
                          ogram
 
 

the carrot to fo
               orce servicers s to participatte.”
LLarge servicers did not parrticipate for nine
                                                        at SIGTAR
                                                      Wha       RP Recom
                                                                       mmends
mmonths, citing
              g administrativ ve burden of 505        SIGT TARP recomm   mends that Tre  easury:
ddifferent progrrams, lack of program                 (a) seet meaningful and measura    able
uuniformity, and lack of GSE E guidance.              perfo rmance goalss for HHF including at a
SServicers cited the need fo or GSE guidan  nce       minimmum the number of homeo      owners to be
bbefore they coould begin participating in the
                                             t        helpe ed and measu  ure progress a against those
                                                                                                     e
pprogram. Treasury did nott gain GSE su     upport    goalss; (b) instruct state housingg finance
fo
 for HHF progrrams for eightt months.                 agenccies in the Ha ardest Hit Funnd to set
TTreasury, respponsible for HHF
                             H     oversightt and     mean  ningful and measurable ovverarching and   d
aaccountable fo or HHF resultts, should hav ve        interimm performancce goals; (c) sset milestonees
bbeen, and stilll should be, th
                              he driving forcce to    at whhich the state housing finan nce agencies
e             he GSEs and large servicers
 ensure that th                                       in thee Hardest Hit Fund must re  eview the
ssupport the HFAs’ program  ms.                       progrress of individdual state proggrams and
                                                      make  e program adjjustments from  m the review;;
In order to reaach the number of homeow     wners     (d) puublish on its w
                                                                          website and inn the Housing g
wwhom the HFA    As collectively
                               y estimate heelping    Score ecard on a qu uarterly basis the total
through HHF, there needs to be a dramatic             numb  ber of homeow  wners assisteed, amounts
in
 ncrease in the  e number of homeowners
                              h                       drawn  n down by staates, and dolllars expended d
hhelped. As was clear in the   e beginning of
                                            o         for asssistance provvided to home  eowners,
HHHF, states need
               n      Treasuryy’s help and            assis tance committted to homeo    owners, and
ssupport to increase the num  mber of                 cash on hand; (e) and develop an action pla    an
hhomeowners helped, and Treasury
                              T          shouuld do   for th e Hardest Hitt Fund that includes steps
eeverything it can
               c to ensure the program’’s             to inccrease the numbers of hom   meowners
ssuccess. Trea   asury should set measurab   ble      assis ted and to ga ain industry su
                                                                                        upport for
ggoals, measurre progress against
                              a        those          Treassury-approved   d HHF progra ams. If
ggoals, and dev  velop an actioon plan to enssure     Treassury cannot a  achieve the deesired level off
that the next five
                f    years result in the Harddest     home  eowners assissted in any on ne program
HHit Fund fulfilling TARP’s goal
                              g    to preservve       area in the defined d time period,, Treasury
hhomeownersh   hip.                                   shoulld put the funds to better u use toward
                                                      progrrams that are reaching hom   meowners.

                                                      In com
                                                           mmenting on a draft of thiss report,
                                                      Treassury stated th
                                                                        hat it will addre
                                                                                        ess
                                                      SIGTTARP’s recom  mmendations a   at a later date
                                                                                                      e.
                                                      A len gthier discusssion of Treasury’s
                                                      respoonse is contaiined in the Ma anagement
                                                      Comm ments section n of this reporrt.




                                                                                                   Aprril 12, 2012
F
Factors Affecting
        A         Implementation
o
of the Hardest Hit Fund Pro
                          ogram
 


T
Table off Conten
               nts
IIntroduction .......................................................................................................................................................1
Background .......................................................................................................................................................3
B
    Deterioratting Market Conditions
                          C          and
                                     a Increasin
                                               ng Unemplooyment Led tto the Devellopment of H
                                                                                            HHF ..... 3
    Treasury Held
             H Four Rounds
                    R      of Fu
                               unding and Approved
                                          A        Fivve Categoriees of Program
                                                                              ms ........................... 4
T
Treasury Announced thee Selection of States at th    he Same Tim         me It Announnced the Proogram. In the Fourth
R
Round, Treasury Nearly Doubled thee Funds Avaailable for HH                HF Four Daays Before T               Treasury’s Sppending
A
Authority Un
           nder TARP Ended.........
                       E           .................................................................................................................6
    Round On
           ne Targeted States
                       S      with Home
                                   H    Price Declines
                                              D        Exxceeding 20%
                                                                    % ................................................. 6
    In Round Two, Treasu
                       ury Expandeed HHF to Fiive Additionnal States wiith High Uneemploymentt ........... 7
    Round Three Used Neew Criteria To      T Target Staates with Hiigh Unemplooyment and F                                  Focus on Programs
    for the Un
             nemployed ..................................................................................................................................... 8
    In Round Four,
             F     Treasu
                        ury Added No   N New Statees, but Alloccated an Addditional $3.55 Billion to
    Previously
             y Funded HFFAs ............................................................................................................................. 9
    Treasury Rejected
             R        Pro
                        ograms as No
                                   oncompliantt with EESA
                                                        A ....................................................................... 9
    Treasury Considered
             C          the
                        t Design of
                                 o the Prograam To Be Innnovative andd Did Not Evvaluate Wheether
    State HHFF Programs Were
                        W Dupliccative of Othher Programss .................................................................... 11
T
The Hardest Hit Fund Haas Experiencced Significaant Delay inn Providing H
                                                                        Help to Hom
                                                                                  meowners; Assistance
M
Must Dramatically Increase To Meett the Numbeer of Homeow    wners Whom m HFAs Inteend To Helpp ..........13
    Treasury’ss One to Two Days of Notice        N          to Stattes Selected in the First T                 Two Roundss Caught thee States
    Off Guard
            d ................................................................................................................................................... 17
    The Primaary Challeng
                        ge for HFAs Was Lack of
                                             o Participati on by Largee Servicers ................................. 19
    Administrrative Burden
                         n, Lack of Program Unifformity, andd Lack of GS                       SE Guidancee Made Servicers
    Hesitant To
             T Participate in HHF.................................................................................................................. 21
    Treasury Did
             D Not Gain
                      n GSE Supp
                               port for HHF
                                          F Before Appproving Statte Programs ............................... 23
    Treasury Convened
                   C                a Servicer Sum        mmit with Key    K Stakehollders Seven Months Afteer Program L                                     Launch
    .................................................................................................................................................................... 24
           E Guidance Was
    Once GSE            W Issued, Large Servicer Participaation in Uneemployment and Reinstaatement
    Programs Greatly Incrreased ....................................................................................................................... 25
G
GSEs and Seervicers Rejeected Some HHF
                                   H   Prograams, Leadingg States To F
                                                                     Focus on Othher Program
                                                                                           ms ........26
T
Treasury’s Goals
           G     and Meetrics Fall Sh
                                    hort and Maake Effectivee Evaluation Difficult....................................32
    Treasury and
             a Most HF
                     FAs Did Nott Set Numeriic Goals ............................................................................ 32
                                                                                                                                             April 12, 2012
F
Factors Affecting
        A         Implementation
o
of the Hardest Hit Fund Pro
                          ogram
 
 
    HFAs Pub  blish Quarterrly Numeric Data on Theeir Own Webbsites, but W                      Without Stateed Numeric Goals, It
    Is Difficullt To Assess Performancce ........................................................................................................... 34
    Estimates of the Numb ber of Particcipating Hou        useholds Thaat Change Eaach Quarter Have Limiteed Value
    for Assesssing Perform
                         mance ........................................................................................................................ 35
    Best Practtices Call forr Setting Goaals and Meaasuring Progrram Perform
                                                                           mance ......................................... 35
C
Conclusions .....................................................................................................................................................38
R
Recommend
        dations ...........................................................................................................................................45
M
Managementt Comments and SIGTA
                             ARP’s Respo
                                       onse .....................................................................................46
Appendix A – Objectives, Scope, and Methodolo
A                                           ogy .....................................................................................47
Appendix B – Acronymss and Abbrev
A                               viations ..................................................................................................50
A
Appendix C – Timeline of
                      o Key HHF
                              F Events ..................................................................................................51
A
Appendix D – HHF Statee Selection and
                                  a Funding
                                          g Allocation Methodologgy ...............................................52
A
Appendix E – HHF Fund   ding Allocattions and Am              mounts Obliggated by Stat               ate, Total Finnalized
S
September 29, 2010 ........................................................................................................................................53
A
Appendix F – HHF Prog   grammatic Ex        xpenses and       d Homeowneers Assisted, by State, ass of
D
December 31
          1, 2011 .........................................................................................................................................54
A
Appendix G – HHF Fund        ding Allocattions and Am             mount Drawddown by HF                   FAs, by Statee, as of
F
February 201
           12 .................................................................................................................................................55
A
Appendix H – HFAs’ Tim    meline of Piilot and Stateewide Progrram Launchees, and Date First Large Servicer
P
Participates, as of Augusst 1, 2011 ...................................................................................................................56
A
Appendix I – State Selecction Rankin
                                   ngs for Roun
                                              nds One, Twoo, and Threee .................................................57
A
Appendix J – HFA Quarrterly Perform
                                  mance Report Template//Data Dictioonary ...........................................63
A
Appendix K – HHF Prog
                    gram Goals by
                               b State and
                                         d Program, ass of Decembber 31, 2011 ..............................68
A
Appendix L – Management Commen
                             nts ..........................................................................................................73
A
Appendix M – Audit Teaam Members .............................................................................................................76




                                                                                                                                                Aprril 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                      1




                  Introduction
                  When Congress authorized the creation of the Troubled Asset Relief Program
                  (“TARP”) in 2008, the nation was in the midst of a housing crisis with a record
                  number of foreclosures. Congress explicitly stated in the TARP legislation that
                  one purpose of TARP was to preserve homeownership and specifically required
                  the Secretary of the U.S. Department of the Treasury (“Treasury”) to take into
                  consideration “the need to help families keep their homes and to stabilize
                  communities” when exercising authority.

                  The U.S. Government took several actions in response to the housing crisis that
                  included rolling out in February 2009 the Making Home Affordable (“MHA”)
                  Program, which contained TARP’s signature housing program, the Home
                  Affordable Modification Program (“HAMP”). Treasury intended for HAMP to
                  help as many as three to four million financially struggling homeowners avoid
                  foreclosure by modifying loans to a level that is affordable for homeowners now
                  and sustainable over the long term.

                  Despite these Government programs, in 2009 and early 2010, homeowners faced
                  a housing market still under significant stress, with nearly 2.8 million foreclosures
                  initiated in 2009, and 932,000 foreclosure filings in the first quarter of 2010. At
                  the end of 2009, 66,465 homeowners were in permanent mortgage modifications
                  under HAMP. In the first quarter of 2010, Treasury announced the expansion of
                  MHA through several new efforts and program revisions.

                  In addition, on February 19, 2010, the Administration announced a new
                  foreclosure prevention program under TARP called the Housing Finance Agency
                  Innovation Fund for the Hardest Hit Housing Markets (“Hardest Hit Fund,” or
                  “HHF”). Phyllis Caldwell, former Chief of Treasury’s Homeownership
                  Preservation Office (“HPO”), told the Office of the Special Inspector General for
                  the Troubled Asset Relief Program (“SIGTARP”) that the idea of the Hardest Hit
                  Fund came from an overall examination of options to tackle home foreclosure
                  economic challenges such as negative equity and unemployment not being
                  addressed by HAMP. According to the program announcement, TARP dollars
                  would fund “innovative measures to help families in the states that have been hit
                  the hardest by the aftermath of the housing bubble.” Two years have passed since
                  HHF was announced, and 30,640 homeowners have received assistance as of
                  December 31, 2011.

                  In a letter to SIGTARP dated June 23, 2010, Chairman Darrell Issa of the House
                  Committee on Oversight and Government Reform requested that SIGTARP
                  initiate a review of HHF, stating, “First, Treasury has not revealed, in a fully
                  transparent manner, the scope and objectives of the state programs that will
                  receive Hardest Hit Fund monies. … Second, the details of Hardest Hit Fund
                  programs that have so far emerged suggest that they will not effectively address


                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                     2




                  the national foreclosure crisis … .” Consequently, SIGTARP began a review to
                  meet the following objectives:

                     assess the extent to which Treasury applied consistent and transparent criteria,
                      including applicable provisions of the Emergency Economic Stabilization Act
                      of 2008 (“EESA”), in selecting the states and programs to receive money from
                      HHF;
                     assess the extent to which Treasury determined that the programs to be funded
                      by HHF are innovative and not duplicative of existing state and Federal
                      programs; and
                     identify the goals and metrics that Treasury adopted and reported to the public
                      for the operation of HHF.

                  SIGTARP will address a fourth objective, to determine whether Treasury put
                  sufficient mechanisms in place to prevent waste, fraud, and abuse of HHF, in a
                  future audit report.

                  In conducting this audit, SIGTARP gathered information from officials from
                  Treasury, Government-sponsored enterprises (“GSEs”) – the Federal National
                  Mortgage Association (“Fannie Mae”) and the Federal Home Loan Mortgage
                  Corporation (“Freddie Mac”) – the Federal Housing Finance Agency (“FHFA”),
                  state housing finance agencies (“HFAs”) participating in the program, and the
                  largest mortgage servicers. For discussion of the audit scope and methodology,
                  see Appendix A.




                                                                                             April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                     3




                      Background
                      HHF is one of three TARP-funded housing programs, along with MHA programs
                      and a Federal Housing Administration (“FHA”) refinancing program.1 Treasury
                      has allocated $45.6 billion to these programs. MHA includes subprograms such
                      as Treasury’s principal housing program, HAMP. HAMP focuses on loan
                      modifications and is intended to use incentive payments to encourage loan
                      servicers (“servicers”) and investors to modify eligible first-lien mortgages so that
                      the monthly payments of homeowners who are currently in default or at imminent
                      risk of default will be reduced to affordable and sustainable levels.

                      Deteriorating Market Conditions and Increasing Unemployment Led
                      to the Development of HHF

                      Treasury officials told SIGTARP that HHF program development began around
                      the end of 2009, when the housing crisis had grown worse and encompassed more
                      of the housing market. At that time, home prices declined and unemployment
                      rose to 9.9%. As part of the program development, the Administration, the
                      National Economic Council, the Council of Economic Advisers, the U.S.
                      Department of Housing and Urban Development (“HUD”), and Treasury officials
                      discussed how to address the evolving housing crisis. Housing and mortgage
                      sector participants, including the Mortgage Bankers Association, the National
                      Council of State Housing Agencies, and HOPE NOW,2 also advised Treasury on
                      the development of HHF.

                      Former HPO Chief Caldwell told SIGTARP that Treasury wanted to do more
                      regarding home foreclosure prevention. She told SIGTARP that the idea of HHF
                      came from an overall examination of options to tackle foreclosure challenges,
                      such as negative equity and unemployment, which were not addressed by HAMP
                      or other MHA programs, and that at the end of 2009, unemployment was
                      hovering around 9%, and one in four homes was underwater.3 Treasury stated
                      that HHF’s goals are to help families in states hit the hardest by the burst of the
                      housing bubble, allow for “locally focused” programs, support “innovative”
                      foreclosure prevention efforts, prevent foreclosures, and stabilize the housing
                      market. Treasury designed the HHF program to provide TARP funding for
                      foreclosure prevention programs designed and run by HFAs. HFAs are
                      authorities created by state law that help provide affordable housing. One
                      Treasury official noted that HHF offered locally tailored solutions, something that

1
  FHA in the U.S. Department of Housing and Urban Development (“HUD”) provides mortgage insurance on loans
  made by FHA-approved lenders.
2
  HOPE NOW is an alliance of mortgage counselors, mortgage companies, investors, and other mortgage market
  participants that aims to maximize outreach efforts to homeowners in distress.
3
  Declining home prices may result in “negative equity,” when the value of the home is less than the mortgage loan
  balance. Being “underwater” is a term also used to describe negative equity.


                                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                     4




                        nationally focused HAMP did not. The Administration noted in announcing HHF
                        that HFAs were “already familiar with the urgent challenges facing their
                        communities and have demonstrated the ability to address these challenges.”

                        Treasury Held Four Rounds of Funding and Approved Five
                        Categories of Programs

                        Initially, Treasury announced that TARP funds would be allocated to states where
                        home prices had declined more than 20%. Former HPO Chief Caldwell told
                        SIGTARP that there were differences in the housing crisis at the state level, citing
                        the example of the “sand states” of Arizona, California, Nevada, and Florida,
                        which had substantial negative equity. Although Treasury had not specifically
                        contemplated a total funding amount for HHF, Treasury later expanded the
                        program in four rounds of funding in 2010. Treasury allocated $7.6 billion in
                        TARP funds for HHF programs at 18 Treasury-selected states and the District of
                        Columbia. The funds remain available until December 31, 2017. Treasury
                        announced the four rounds as follows:4

                           Round One: Announced February 19, 2010, $1.5 billion for five states with
                            home price declines greater than 20% (Arizona, California, Florida, Michigan,
                            and Nevada);
                           Round Two: Announced March 29, 2010, $600 million for five states with
                            high concentrations of people living in economically distressed areas defined
                            by Treasury as counties with unemployment rates that exceeded 12% (North
                            Carolina, Ohio, Oregon, Rhode Island, and South Carolina);
                           Round Three: Announced August 11, 2010, $2 billion for states with
                            unemployment above the then-national average of 9.8% (17 states and the
                            District of Columbia); and
                           Round Four: Announced September 29, 2010, $3.5 billion for states already
                            in HHF.

                        Treasury subsequently approved HHF programs in five categories of assistance:
                        (1) principal reduction; (2) second-lien reduction or payoff; (3) reinstatement
                        through payment of past due amounts; (4) unemployment/underemployment
                        assistance; or (5) transition assistance such as a short sale (in which the home is
                        sold for less than the mortgage loan balance), deed-in-lieu of foreclosure (in
                        which the homeowner transfers ownership to the lender or investor), or relocation




4
    For a timeline of key HHF events, see Appendix C, and for the amount of HHF funding obligated to each state by
    round, see Appendix E.


                                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                   5




                       assistance. Each HFA could offer multiple programs under HHF, with Treasury
                       approval.5




5
    For all HHF participation agreements and amendments by HFAs containing program descriptions, the estimated
    number of households served, and the funds allocated to each program, see the Contracts & Agreements tab at
    http://www.treasury.gov/initiatives/financial-stability/programs/housing-programs/hhf/Pages/default.aspx.


                                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                         6




                        Treasury Announced the Selection of States at
                        the Same Time It Announced the Program. In the
                        Fourth Round, Treasury Nearly Doubled the
                        Funds Available for HHF Four Days Before
                        Treasury’s Spending Authority Under TARP
                        Ended
                        For each round, Treasury internally decided on criteria for that round, applied
                        the criteria to all states and the District of Columbia, decided the states and the
                        amount of funds to distribute among the states, and then publicly announced the
                        decisions. Treasury used a different method and criteria for selecting states for
                        each round. Treasury consistently applied its announced criteria in the first three
                        rounds, but in Round Two, the choice of the cutoff for its selection of states was
                        not transparent. Four days before Treasury’s TARP investment authority expired,
                        Treasury nearly doubled the funds for the program, giving the funds to the
                        participating states without expanding the program to additional states.

                        Round One Targeted States with Home Price Declines
                        Exceeding 20%

                        As first announced, HHF would fund states where the average home price had
                        declined more than 20%. In the first round, Treasury selected five states,
                        applying the 20% criteria. Former HPO Chief Caldwell told SIGTARP, “We
                        focused on price declines, which were expected to include the ‘sand states’ since
                        they had homes that were greater than 20% underwater. We thought about
                        principal reduction and negative equity to address that in places where
                        homeowners had put down 20% or more and were still underwater.” Caldwell
                        explained that Treasury thought it “could capture the responsible borrower caught
                        in the bubble and then price declines.”

                        Treasury used the FHFA seasonally adjusted purchase-only house price index to
                        calculate the statewide percentage decline from each state’s home price peak
                        (which most frequently occurred in 2007).6 Former HPO Chief Caldwell told
                        SIGTARP the breakpoint for the first five states selected made sense, and that
                        after the first five, there was a big gap. Michigan, the fifth state selected for

6
    The FHFA seasonally adjusted purchase-only house price index measures changes in single-family house prices. It is a
    repeat-sales index, using price changes from repeat sales of the same properties. The index is based on sale prices of
    detached houses with mortgages that were conventional, were conforming, and were securitized or purchased by
    Fannie Mae or Freddie Mac. A conventional mortgage is one that is not insured by FHA or guaranteed by the U.S.
    Department of Veterans Affairs. A conforming mortgage is one that has a loan balance no greater than that allowed by
    GSEs, and meets minimum underwriting standards.


                                                                                                                April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                          7




                      Round One, had a price decline of 24.1%, whereas Maryland – which was not
                      selected for Round One – had a price decline of 19%. She explained that for the
                      next five states, “there was not a good breakpoint, and the next five in the first
                      criteria list did not meet our objectives.”7 After the five states Treasury selected,
                      the remaining states fell under 20% in home price decline.8

                      In Round Two, Treasury Expanded HHF to Five Additional States
                      with High Unemployment

                      On March 29, 2010, Treasury announced the expansion of HHF to states with
                      high concentrations of people living in economically distressed counties in which
                      the unemployment rate exceeded 12% in 2009. Treasury selected five states:
                      North Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Former HPO
                      Chief Caldwell told SIGTARP that home foreclosures caused by concentrated
                      unemployment were not being addressed by HAMP, and Treasury wanted to use
                      HFAs to address the issue. Former Treasury Assistant Secretary for Financial
                      Stability Herbert Allison told SIGTARP, “We heard from lots of other states after
                      the first round. … Members of Congress and community groups spoke out.”
                      Treasury received letters from elected officials of Ohio and Pennsylvania,
                      expressing concern as to why their states were not funded through the program
                      and urging Treasury to expand the program to other states.

                      Unlike for Round One, Treasury was unable to clearly explain how it selected the
                      criteria of a greater than 12% unemployment rate other than to call it a “policy
                      decision,” and explain how it drew a cutoff line for the five states that received
                      funding when there was not a clear statistical cutoff point. Treasury’s press
                      release stated, “Less than 15 percent of the U.S. population lives in such high
                      unemployment rate counties.” In Round Two, Treasury selected North Carolina,
                      Ohio, Oregon, Rhode Island, and South Carolina, states that had a range of 22%
                      to 60% of their population living in counties with concentrated unemployment.9
                      Unlike Round One, Round Two did not have a clear statistical cutoff point for
                      state eligibility. There was a small gap between states included and excluded for
                      the second round, with Ohio included at 22% of state population in high
                      unemployment counties and Tennessee excluded at 21%. Treasury’s

7
  The state price decline percentages as calculated from the FHFA’s seasonally adjusted purchase-only house price index
  are identified in Appendix I.
8
  Treasury allocated the $1.5 billion in TARP funds among the states using a Treasury-created formula that included
  housing price declines calculated from the FHFA seasonally adjusted purchase-only house price index, unemployment
  data from the U.S. Department of Labor’s Bureau of Labor Statistics (“BLS”), and the number of delinquent loans in
  the state. The methodology was based on the sum of two ratios. The ratio of a state’s unemployment rate compared to
  the highest unemployment rate in any state and the ratio of a state’s price decline compared to the largest price decline
  in any state were summed. Then, the sum of the ratios was multiplied by the number of delinquent loans in each state,
  and funding was allocated based on the “weighted share” of delinquencies. Treasury used the number of loans that
  were at least 60 days delinquent but not in foreclosure, from the Mortgage Bankers Association, fourth quarter of 2009.
9
  California and Michigan met the statistical requirements for Round Two, but Treasury disqualified them because they
  had already been selected for Round One.


                                                                                                                 April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                     8




                     Frequently Asked Questions stated, “In order to help significant quantities of
                     borrowers and test the effectiveness of these efforts, funding levels need to be
                     high enough to make a significant impact. For this reason, HFAs in the five states
                     most severely impacted will be allocated funding.” After selecting the states,
                     Treasury allocated funds among the states in proportion to the number of people
                     in each state living in counties with high unemployment.

                     Treasury selected the states based on the greater than 12% unemployment rate in
                     specific counties, but allowed the states to spend HHF dollars throughout the
                     state, even if other areas of the state had unemployment of 12% or less because,
                     according to a senior Treasury official, the White House wanted to provide states
                     more flexibility and not be seen as being prescriptive.

                     Round Three Used New Criteria To Target States with High
                     Unemployment and Focus on Programs for the Unemployed

                     On August 11, 2010, Treasury announced Round Three and an additional
                     $2 billion. Although all states were eligible, even if already participating in HHF,
                     Treasury selected states with unemployment at or above 9.8%, the national
                     average at the time, using the U.S. Department of Labor’s Bureau of Labor
                     Statistics (“BLS”) data.10 Applying these criteria, Treasury selected 17 states and
                     the District of Columbia for Round Three and allocated funds based on the
                     population size of eligible states. For detailed state selection rankings and
                     allocations for Rounds One, Two, and Three, see Appendix I.

                     A Treasury press release announcing Round Three said the funds had to be used
                     for “targeted unemployment programs that provide temporary assistance to
                     eligible homeowners to help them pay for their mortgage while they seek re-
                     employment, additional employment or undertake job training.” Half of the states
                     eligible for Round Three had previously received HHF funds and were allowed to
                     amend their approved plans to create or modify programs to target
                     unemployment.11 One HFA pointed out to SIGTARP the need for a targeted
                     unemployment program building on HAMP, which focused on loan modification.
                     The HFA official said, “HAMP is a loan modification program – this is not
                     effective if people are unemployed – they need a targeted unemployment
                     program.”




10
   Treasury used the BLS seasonally adjusted monthly unemployment rates (by state) and took the average for each state
   from July 2009 through June 2010.
11
   The only state that had previously received funds but was not included in Round Three was Arizona because Arizona’s
   12-month average unemployment rate was not equal to or greater than the national average.


                                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                         9




                      In Round Four, Treasury Added No New States, but Allocated an
                      Additional $3.5 Billion to Previously Funded HFAs

                      On September 29, 2010, Treasury announced that in Round Four, an additional
                      $3.5 billion would be provided to all states already approved for HHF, bringing
                      total TARP funding for the program to $7.6 billion. Treasury officials told
                      SIGTARP that the decision to provide a fourth round of funding was based on the
                      belief that a state-driven solution could address the ongoing housing crisis and
                      mentioned the impending October 3, 2010, expiration of Treasury’s investment
                      authority under TARP.12

                      For the first three rounds, SIGTARP found that Treasury consistently applied the
                      announced criteria to all states. Round Four provided more money to the states
                      already in HHF. According to Treasury, in the first three rounds it assessed
                      states’ capacity to implement HHF programs and funded the states according to
                      what it thought the HFAs could use effectively. However, in Round Four,
                      Treasury nearly doubled the program’s funding and allocated the funds to the
                      participating states by population. Treasury officials told SIGTARP that Treasury
                      called the HFAs and inquired as to their capacity before obligating additional
                      funds. Despite a SIGTARP request, Treasury provided SIGTARP no
                      documentation showing evaluation of each state’s ability to effectively absorb
                      additional funding. Therefore, it is not clear how Treasury assessed the HFAs’
                      needs and requirements for receiving nearly double the TARP funding. For an
                      overview of the funding, state selection criteria, states funded, and funding
                      allocation method, see Appendix D.

                      Treasury Rejected Programs as Noncompliant with EESA

                      In announcing HHF on February 19, 2010, the Administration specifically stated
                      that programs must meet funding requirements under EESA, which included “that
                      the recipient of funds must be an eligible financial institution and that the funds
                      must be used to pay for mortgage modifications or for other permitted uses under
                      EESA.” Treasury determined which of the 19 HFAs were eligible financial
                      institutions, and required each HFA that was not an eligible financial institution to
                      establish one to receive the Government funds.13


12
   The funds were allocated based on each of the participating state’s population. For detail on funding allocations
   among Round Four states, see Appendix E.
13
   Treasury may only purchase a “troubled asset” from a “financial institution” as defined in EESA, and Treasury may
   use its authority under Section 109(a) to use loan guarantees and credit enhancements to facilitate loan modifications
   to prevent avoidable foreclosures. Treasury required each HFA to designate or create an entity (“Eligible Entity”) that
   complied with the definition of a “financial institution” under Section 3(5) of EESA, and Treasury entered into
   participation agreements – which it determined were “financial instruments” and therefore “troubled assets” under
   Section 3(9) of EESA – with the Eligible Entities, requiring the Eligible Entities to implement locally tailored
   programs to help prevent foreclosures and stabilize the housing markets in their respective states.


                                                                                                                April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                       10




                        Treasury also reviewed and approved or rejected state HFAs’ programs, focusing
                        largely on whether the proposed program complied with EESA. Treasury’s HFA-
                        Hardest Hit Fund Review Committee (“Review Committee”) was responsible for
                        evaluating the proposed programs for compliance with EESA and in accordance
                        with Treasury’s guidelines.14

                        Treasury determined that programs in the following five categories were
                        authorized by Section 109(a) of EESA as “credit enhancements” to facilitate loan
                        modifications for preventing avoidable foreclosures:

                            unemployment programs;
                            mortgage modification/principal reduction;
                            second-lien reduction;
                            reinstatement or short-term loan; and
                            relocation, short sale, or deed-in-lieu.

                        SIGTARP has reviewed Treasury’s contracts with HFAs detailing each of the 49
                        programs initially approved through the first three HHF rounds. SIGTARP found
                        that all of the programs fall within one of the five categories set forth above.

                        Treasury consistently rejected proposed programs for legal aid and foreclosure
                        counseling. Treasury conducted a legal analysis that determined that proposals
                        for legal aid services were not specifically authorized by EESA. In addition,
                        Treasury determined that certain proposed legal aid services and broad-based
                        foreclosure counseling were not necessary and incidental, as a matter of law, to
                        the implementation of the HHF because Congress had provided other specific
                        appropriations that fund similar services provided by the HFAs and because legal
                        aid services were not “necessary” or “essential” to the implementation of a loan
                        modification program. Treasury rejected some proposals because the programs
                        did not establish enough of a link between the assistance offered and the
                        prevention of avoidable foreclosures and therefore did not comply with EESA.
                        According to HFAs, Treasury rejected proposed programs for down payment
                        assistance, mediation, job training, job creation, and a program for the elderly
                        with flood-damaged homes who qualified for reverse mortgages. However,
                        beyond stating that the HFA-proposed programs did not establish enough of a link
                        between the assistance offered and the prevention of avoidable foreclosures,
                        Treasury has not provided additional explanation or documentation for the
                        rejection of those particular programs. Treasury provided documentation such as
                        Review Committee minutes showing decisions on proposed programs, and emails
                        from a contracted law firm conveying Treasury guidance to the states on some
                        types of assistance that were not permissible. However, this documentation was

14
     The Review Committee included seven voting representatives from Treasury’s Office of Financial Stability (“OFS”)
     and Treasury’s Office of Domestic Finance, and four non-voting participants including two attorneys from the Office
     of Chief Counsel, a Budget Officer, and a Financial Analyst.


                                                                                                                April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                    11




                  not sufficient for SIGTARP to analyze the basis for Treasury’s rejection of these
                  programs or to form an opinion as to whether Treasury consistently applied that
                  basis in rejecting these programs.

                  Treasury Considered the Design of the Program To Be Innovative
                  and Did Not Evaluate Whether State HHF Programs Were
                  Duplicative of Other Programs

                  Treasury officials, the GSEs, FHA, and some servicers considered the design of
                  the HHF program to be innovative. Treasury officials stated that HHF is
                  innovative in general by providing “locally tailored” solutions. The HHF
                  Program Director told SIGTARP, “There was no definition of innovation required
                  by Treasury. Treasury did not ask states to reinvent the wheel; states used their
                  discretion and developed their own delivery mechanisms that Treasury considers
                  to be innovative in general. There are only so many ways to implement
                  foreclosure mitigation programs.” Former HPO Chief Caldwell said, “Innovation
                  means different things to different people. HHF was innovative in that it’s
                  different from HAMP. HAMP is a one-size-fits-all program.” She also said,
                  “There was no litmus test for innovation.” Caldwell also noted that HHF could be
                  considered innovative in the context of traditional mortgage modifications
                  because HHF programs were different, and states have the flexibility to choose
                  the type of program and set the amount of funding and the number of
                  homeowners they wish to help.

                  SIGTARP consulted Fannie Mae, Freddie Mac, FHA, three of the largest
                  servicers, and an academic about whether HHF had innovative aspects. They told
                  SIGTARP that they generally agreed that HHF programs have innovative aspects
                  compared to existing Government programs because they provide different types
                  of assistance at a local level or help borrowers for longer periods of time. Some
                  mortgage industry stakeholders considered HHF unique in targeting the
                  unemployed and second liens. Another mortgage industry stakeholder considered
                  assistance to unemployed homeowners with no income to be innovative.
                  Mortgage industry stakeholders also said that the HHF programs provide deeper
                  relief to homeowners than before the housing crisis because previous programs
                  were generally funded at too low a level to respond effectively to the housing
                  crisis, were not designed to address negative equity or issues with second liens, or
                  had eligibility requirements that excluded many current struggling homeowners
                  such as the unemployed.

                  Treasury told SIGTARP that it did not perform an analysis to determine whether
                  HHF programs were duplicative of existing Federal and state programs. Treasury
                  officials told SIGTARP that they did not require HFAs to design programs that
                  had never before been implemented. Treasury encouraged states to borrow other




                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                    12




                      states’ effective programs,15 and told the states that their HHF proposals could
                      complement existing foreclosure programs, including HAMP.16




15
   For example, Treasury referred HFAs to existing programs that could serve as models for HHF programs. One such
   model program was Pennsylvania’s Homeowners’ Emergency Mortgage Assistance Program, which assists
   unemployed borrowers. Other existing foreclosure prevention programs used as models include the Delaware
   Emergency Mortgage Assistance Program, North Carolina’s Home Protection Pilot Program, and the Ohio Home
   Rescue Fund.
16
   For example, HHF assistance can be used either to make a borrower eligible to participate in a HAMP program, or to
   assist a borrower who has already received a permanent HAMP loan modification. Treasury also issued guidance on
   how HHF programs should interact with MHA foreclosure prevention programs.


                                                                                                             April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                     13




                      The Hardest Hit Fund Has Experienced
                      Significant Delay in Providing Help to
                      Homeowners; Assistance Must Dramatically
                      Increase To Meet the Number of Homeowners
                      Whom HFAs Intend To Help
                      This section describes how Treasury’s planning and oversight created
                      implementation issues that delayed participation by Fannie Mae, Freddie Mac,
                      and the largest servicers. The delay in participation by these major stakeholders
                      had a ripple effect on preventing the state HFAs from getting assistance to
                      homeowners.

                      State HFAs experienced delays in rolling out their programs and getting
                      assistance to homeowners. Treasury reported that all 19 HFAs in the HHF
                      program had begun offering assistance statewide by July 2011. According to the
                      most recently available performance results data as of December 31, 2011, the
                      HFAs had offered 55 HHF programs.17

                      As of February 2012, two years after the launch of HHF, the HFAs had drawn
                      down $828.6 million. The majority of these funds had been identified for
                      administrative expenses and cash on hand.18 As of December 31, 2011, HFAs
                      had spent $217.4 million (or 3% of $7.6 billion) to assist 30,640 homeowners,
                      only 7% of the 458,632 to 486,536 homeowners whom HFAs plan to assist by
                      December 31, 2017, when the program’s funding expires.19 See Table 1 for
                      estimates of the number of homeowners to be assisted, and actual numbers for the
                      applications approved, homeowners served, and the amount of funds spent on
                      programs through December 31, 2011.




17
   HFAs had 55 programs as of December 31, 2011. Since then, HFAs added or eliminated programs with a net result of
   54 programs as of January 25, 2012. However, the most recent available quarterly performance results data analyzed
   for this report are from December 31, 2011. As a result, for many purposes in this report, SIGTARP uses data as of
   December 31, 2011.
18
   Treasury monthly reports refer to funds paid to HFAs for HHF as “drawdowns,” or disbursements. “Cash on hand”
   refers to funds that the states have received from Treasury but not spent. According to Treasury, 16 of the 19 HFAs
   hold the funds in interest-bearing accounts. Any interest earned can be used only for HHF. For the amount drawn
   down by each HFA, see Appendix G.
19
   SIGTARP aggregated the HFAs’ estimated number of homeowners to be assisted through December 2017 for all HHF
   programs to arrive at a single range of numbers the program plans to assist overall (see Table 1 note). The range is
   from 458,632 to 486,536 homeowners.


                                                                                                             April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                                              14



     TABLE 1

     ESTIMATED AND ACTUAL HHF USAGE
                                           Estimated                      Applications                   Homeowners                 Assistance Spent
                                    Number of Homeowners                    Approved                       Assisted                   on Programs
                                                          a                           b
     Date                           to Assist Through 2017                (cumulative)                   (cumulative)                 (cumulative)
                                                                                                                 c
     As of September 30, 2010                244,703-262,170                       262                        n/a                           $1,060,390
                                                                                                                 c
     As of December 31, 2010                 434,472-475,054                       757                        n/a                           $3,819,129
     As of March 31, 2011                    507,619-549,094                     2,598                       2,328                        $10,949,749
     As of June 30, 2011                     501,506-538,206                     8,422                       7,389                        $40,726,410
     As of September 30, 2011                480,929-510,797                    20,695                      19,025                       $112,494,322
     As of December 31, 2011                 458,632-486,536                    33,542                      30,640                       $217,427,372
     Note: Treasury allocated Round Four funds by September 30, 2010, but the HFAs did not reflect this in estimates of the numbers they would serve until
     December 2010. As a result, the estimated number of participating households increased substantially from September 30, 2010, to December 31, 2010.
     a
      This column shows the totals of the individual program estimates. According to Treasury, these totals do not necessarily translate into the number of
     unique homeowners whom the states expect to assist because some homeowners may participate in more than one HHF program.
     b
      In some states, homeowners may apply to more than one program, so the number of applications approved may be higher than the number of borrowers
     assisted.
     c
      HFA quarterly reports did not include data for Homeowners Assisted until the March 31, 2011, report.
     Sources: HFA Participation Agreements, amendments through 12/31/2011, and Quarterly Performance Data reports, third and fourth quarters 2010, first,
     second, third, and fourth quarters 2011, reporting states. Some figures have changed from those previously published in SIGTARP Quarterly Reports as
     some HFAs revised previously reported numbers.




                              The initial months of the HHF program involved a ramp-up period – HFAs
                              developed proposals for programs, Treasury reviewed and approved proposed
                              programs, and HFAs established infrastructure for administering their programs.
                              The rollout of HHF was also staggered – Treasury approved Round One HFAs’
                              programs in June 2010, Round Two HFAs’ programs in August 2010, and
                              Round Three HFAs’ programs in September 2010. As is evidenced in Table 1,
                              the estimated number of homeowners to be assisted by HHF has been steadily
                              decreasing over the last year. There will have to be a dramatic increase in the
                              number of homeowners served to reach the most recent minimum estimate of
                              459,000 homeowners assisted.20

                              Three-fourths of the HHF assistance provided to homeowners so far was for
                              unemployment assistance. The remaining assistance provided to homeowners can
                              be broken down to 20% for reinstatement through payment of past due amounts,
                              5% for principal reduction, 1% for second-lien reduction, and 0.1% for transition
                              assistance (see Figure 1). This assistance ranged from approximately $3,000 to
                              $50,000 per homeowner.21



20
     For the programmatic expenses and homeowners assisted by HFAs through December 31, 2011, see Appendix F.
21
     Treasury told SIGTARP that for two HHF loan purchase programs in Illinois and Oregon, the per-household
     assistance could be calculated when the programs are completed because all of the information would not be available
     until assistance is concluded. SIGTARP eliminated these two programs from the per-household assistance
     calculation.


                                                                                                                                                  April 12, 2012
F
FACTORS AFFE
           ECTING IMPLEM
                       MENTATION OF THE HARDEST
                                              T HIT FUND PRO
                                                           OGRAM                                                                      15



F
FIGURE 1
A
ASSISTANCEE PROVIDED
                   D UNDER HHF PROGRAM
                                     MS
B
BY TYPE OF ASSISTANC
                   CE THROUGHH DECEMBE
                                     ER 31, 2011


                                                                                   PRIINCIPAL
                                                                                   RED
                                                                                     DUCTION
                                                                                   $10
                                                                                     0,397,621
                                                                                       5%               2
                                                                                                        2ND-LIEN REDUUCTION
                                                                                                             $1,882,683
                                                                                                                      3
                                                                                                                 1%

                                                                                                              REINSTATEEMENT
                                                                                                                $42,744,862
                                                                                                                   20%
                                                UNEEMPLOYMENT
                                                 ASSSISTANCE                                                 TRANSITION N
                                                  $1
                                                   162,146,435                                               ASSISTANCE
                                                      75%                                                      $255,771
                                                                                                                 0.1%




                                            Total HH
                                                   HF Program Exp
                                                                penses = $217,4
                                                                              427,372


S
Source: HFA quarte
                 erly performance re
                                   eports through Dece
                                                     ember 31, 2011. Totals
                                                                     T      do not add to
                                                                                        o 100% due to roun
                                                                                                         nding.




                           The Government
                               G              Performance
                                              P           e and Resultts Act of 19993 guidance related to
                           prograam planningg in Federal agencies
                                                          a       offe
                                                                     fers best pracctices for Goovernment
                           prograams. These include: (1)) involving sstakeholderss early on, w which can
                           determ
                                mine whetheer a Federal program
                                                          p       succceeds or faills, and (2) asssessing the
                           extern
                                nal environmment becausee forces outsiide an organnization’s coontrol can
                           powerrfully affect chances for success. Thhe Congressiional Oversiight Panel
                           (“COP P”) has also opined on best
                                                        b practicess in the area of Treasuryy housing
                           prograams by emph hasizing the importance of determinning whetherr Federal
                           forecllosure preven
                                             ntion prograams can be raamped up quuickly to hanndle large loan
                           volum
                               mes, and wheether the program will haave widespreead participaation by lendders
                           and seervicers.

                           Using
                               g these best practices,
                                            p          Treasury couldd have improoved its plannning and
                           execu
                               ution for HHFF and increaased particip ation in HHF
                                                                                 F by:

                               brringing all keey stakeholdders such as H
                                                                         HFAs, servicers, and GS  SEs togetherr
                                siggnificantly earlier
                                               e       than seven
                                                            s      monthhs after progrram launch tto ensure thaat
                                staakeholder neeeds would beb addressedd;
                               gaaining broad industry accceptance forr the state proograms it appproved, suchh as
                                prrincipal redu
                                              uction or seco ond-lien reduuction;



                                                                                                                               Aprril 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                        16




                     taking a stronger role in securing early participation of the largest servicers –
                      Round One and Two states told SIGTARP that without large servicers on
                      board, they would not be able to help a significant portion of homeowners
                      whom they originally estimated;
                     anticipating common implementation issues early on and resolving them in a
                      timely manner; and
                     supplying critical guidance, information, and support to GSEs and other
                      stakeholders earlier than they did.

                  The former Assistant Secretary for Financial Stability, Herbert Allison, told
                  SIGTARP that at the time Treasury announced the first round, Treasury did not
                  expect to have a second or third round for the HHF program. However, in order
                  to ensure that this initial $1.5 billion would be distributed efficiently and
                  effectively to homeowners, Treasury should have brought all key stakeholders
                  together early on to mitigate any barriers to participation. Even if the program
                  had remained at the $1.5 billion or $2.1 billion funding level, early collaborative
                  involvement of key stakeholders could have helped provide this assistance to
                  homeowners more quickly than the program has done.

                  Treasury did not use its influence with key stakeholders for effective
                  implementation of the program. Treasury involved some key stakeholders
                  individually in planning HHF late in 2009 and contacted the GSEs and FHFA on
                  the day before the program was announced. A working group of FHFA, Fannie
                  Mae, and Freddie Mac officials discussed HHF in the early months. The working
                  group met several times in April, May, and June of 2010. A Treasury official said
                  Treasury had monthly one-on-one calls with HFAs that began in the summer of
                  2010; one-time visits to each state when its HHF programs opened statewide;
                  calls with states explaining interaction between HAMP and HHF, and other
                  issues; quarterly conference calls with HFAs; biweekly calls with more than 100
                  servicers and states; and biweekly calls with large servicers.

                  Despite Treasury’s contacts with these stakeholders, Treasury did not use its
                  influence to enlist servicers’ support for and participation in state HHF programs,
                  instead largely leaving that to the states. By July 2010, only one HFA (Michigan)
                  had launched its pilot program and no large servicers were participating in HHF.
                  Servicers cited the need for GSE guidance to begin participating in HHF. One
                  GSE stated it had little direct contact with Treasury. This may have been a result
                  of FHFA’s guidance. In June 2010, FHFA issued an email to Treasury, Fannie
                  Mae, and Freddie Mac, stating:

                      “FHFA’s OGC [Office of General Counsel] has determined that the GSEs
                      should not work directly with Treasury on the design of HHF programs. If
                      the GSEs work with Treasury directly on program terms, the GSEs could
                      be perceived as having undue influence in the design of the HFA


                                                                                                April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                     17




                            programs. Given Treasury’s substantial investment in the GSEs, we don’t
                            think that perception can be completely eliminated. However, we think it
                            can be minimized by having the GSEs work directly with the affected
                            HFAs on any program issues, rather than with Treasury staff.”

                        An FHFA official later clarified that GSEs could work in general with Treasury
                        but could not ask Treasury to review or approve proposed “partnership proposals”
                        to HFAs.

                        Key stakeholders stated that Treasury’s decision to make states responsible for
                        negotiating with servicers without Treasury first using its influence to resolve
                        common issues may have impeded progress in the early months of HHF. Nine of
                        the 10 HFAs funded in Round One and Round Two launched their initial HHF
                        programs without large servicer participation. One HFA told SIGTARP that
                        getting national banks to participate would have “required lots of coaxing and
                        planning on the part of Treasury” and it would have been helpful to bring
                        potential participants together before the program was announced. One large
                        servicer told SIGTARP, “Anytime all the parties can be involved in a program,
                        the more success you will have. I think that if Treasury, the states, and the
                        servicers were involved earlier on, that the program would be more successful and
                        further along.”

                        FHFA informed Treasury as early as April 2010 that the GSEs needed an official
                        determination from Treasury that they were allowed to accept TARP funds, and
                        Treasury provided that in August 2010. Despite these communication efforts,
                        GSEs’ support for HHF was not finalized until after Treasury gathered the FHFA,
                        HFAs, large servicers, and GSEs for a collaborative effort in September 2010.
                        That meeting led to GSE guidance, which in turn led to large servicer
                        participation in HHF. If Treasury had taken earlier efforts to collaborate with
                        these key stakeholders, all may have been able to better anticipate barriers to
                        participation in the program.

                        Several issues delayed HHF’s implementation. What follows is a discussion of
                        the most significant issues.

                        Treasury’s One to Two Days of Notice to States Selected in the First
                        Two Rounds Caught the States Off Guard

                        Treasury gave the five states selected for Round One a single day’s notice before
                        the announcement of the program on February 19, 2010. Until that time, four of
                        the five states had no knowledge that they were under consideration to receive
                        TARP funds or that the HHF program was being developed.22 On

22
     One state HFA’s representative was involved in discussions with Treasury on the development of HHF in the two
     weeks before the program announcement.


                                                                                                             April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                     18




                      February 18, 2010, Treasury held a conference call with the five states in which
                      Treasury notified them about the program, their selection to receive TARP funds,
                      and a “walk-through” of the application process. In Round Two, three of the five
                      states told SIGTARP that Treasury provided one to two days’ advance notice that
                      they were selected. Representatives from two state HFAs in Round Two told
                      SIGTARP they did not know they were selected for the program until
                      March 29, 2010, the day of Treasury’s announcement, when they received phone
                      calls from the media. Treasury told SIGTARP that it did not provide HFAs in the
                      first two rounds more than one day’s notice because “giving notice too early
                      could lead to the premature release of information that is incomplete or
                      inaccurate.”

                      Treasury’s decision to give one to two business days’ notice to HFAs that they
                      were selected for various rounds of HHF funding caught several HFAs off guard
                      and did not allow them enough time to prepare to respond to the public’s inquiries
                      about the program. One HFA official told SIGTARP that 10 minutes after the
                      announcement, the HFA began receiving phone calls from the public about the
                      program, and the HFA received 200 phone calls that day from people asking
                      when the money would be available.

                      HFAs had a matter of weeks to develop their programs after their selection was
                      announced. On March 5, 2010, two weeks after announcing the Round One HHF
                      program, Treasury told the states that they were required to submit proposals for
                      their HHF programs by April 16, 2010,23 which had to comply with new Treasury
                      guidelines.24 The HFAs gathered public input in developing proposed programs.

                      In addition to developing proposed programs, the HFAs had to change their
                      processes and hire and train staff to implement the programs. One HFA official
                      told SIGTARP that the HFA “was not prepared to deal with the tsunami of the
                      HHF. … We had to build business processes.” A second HFA said that it had to
                      “scramble and get a network in place.” One HFA had to add more staff assigned
                      to HHF, going from seven employees to 42 employees, a sixfold increase. If
                      Treasury had informed the HFAs before the announcement, the HFAs may have
                      been able to identify their ramp-up requirements and been better prepared to
                      handle inquiries from the public.



23
   On April 12, 2010, Treasury told the Round Two states that they were required to submit proposals for HHF programs
   by June 1, 2010.
24
   The guidance stated that the states’ proposals could include innovative housing initiatives tailored to their local
   conditions to help prevent foreclosures and stabilize housing markets, including individual programs targeting
   unemployed borrowers, underwater borrowers, and second-lien relief. Treasury’s guidance limited any assistance to
   borrowers with loans that had an unpaid principal balance of $729,750 or less. This amount was the GSE conforming
   loan limit in effect from the start of HHF through October 1, 2011. The guidelines also emphasized that the programs
   must meet EESA requirements for funding, purpose, and accountability. Treasury also provided a list of foreclosure
   prevention tools or foreclosure alternatives that would meet EESA requirements.


                                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                        19




                  The Primary Challenge for HFAs Was Lack of Participation
                  by Large Servicers

                  Several HFAs told SIGTARP that their primary challenge with the
                  implementation of HHF was the lack of participation by large servicers. In regard
                  to the lack of servicer participation, one HFA told SIGTARP that on a scale of
                  one to 10, “this was a 10.” Another HFA told SIGTARP, “Our biggest complaint
                  is we were provided these funds, and we have such a need here, but we weren’t
                  able to handle the mass numbers because of no participation from the large
                  lenders.”

                  SIGTARP found that Treasury’s delay in securing support from large servicers
                  and the GSEs in Round One, and even in Round Two, was a planning and
                  execution error. There was a very low volume of homeowners assisted until after
                  the GSEs came on board, which in turn led to large servicer participation. A
                  Treasury official told SIGTARP that the program was purposefully designed to
                  have the HFAs negotiate with the servicers, but several HFAs reported being
                  rebuffed by large servicers when seeking their participation for the Treasury-
                  approved programs. One HFA told SIGTARP that large lenders said that with the
                  number of homeowners who would receive assistance and the lenders’ capacity,
                  implementing the HHF program without a consistent process from the states
                  would have been difficult for them. Another HFA told SIGTARP that servicers
                  responded by saying that all of the HHF states with different programs would be
                  too many different programs to handle. In designing the program this way,
                  according to two HFAs, Treasury did not address the lack of bargaining power
                  that smaller state HFAs had to recruit large servicers. A Florida HFA official
                  explained to SIGTARP, “The one billion dollars has been a nice carrot to use for
                  servicers in Florida, but there is no stick with the carrot to force servicers to
                  participate.” Another HFA told SIGTARP that it would have been helpful if
                  Treasury had been more aggressive in getting large lenders to participate.

                  Treasury was aware of the HFAs’ lack of progress in recruiting large servicers.
                  One HFA official said that at the time Round One states signed their HHF
                  contracts, one question was unanswered – would large servicers participate in
                  HHF? He said that Treasury did not have an answer but Treasury realized the
                  large banks “were late to the table.”

                  Prior to receiving crucial guidance from the GSEs in October 2010, none of the
                  four largest servicers had agreed to participate with any of the 19 HFAs in HHF.
                  Several HFAs launched pilot programs with local community banks, and credit
                  unions signed up to participate – though these institutions held a relatively small
                  number of loans. Several HFAs praised Treasury for encouraging HFAs to pilot
                  their programs before a full rollout.




                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                    20




                  Nine of the 10 HFAs funded in Round One and Round Two launched their initial
                  HHF programs without large servicer participation, and one delayed its initial
                  launch because large servicers were not participating. For example:

                     Michigan’s HFA signed up 136 local banks and launched its pilot program in
                      July 2010 without major servicers. Michigan rolled out three HHF programs
                      statewide in October 2010 without any of the four largest servicers
                      participating.
                     Florida’s HFA said it delayed its pilot launch from August 2010 to
                      October 2010 because large servicers were not participating. Florida launched
                      with one large servicer.
                     Arizona’s HFA had planned to launch its pilot programs in July 2010, but
                      instead launched in September 2010 with mostly community banks
                      participating. Large servicers and the GSEs were not participating at that
                      time; they were reluctant to join.
                     Nevada’s HFA took nearly a year to come to an agreement with Bank of
                      America Corporation (“Bank of America”) for the bank’s participation in
                      Nevada’s principal reduction program. Nevada stated that it had started
                      working with Bank of America in April 2010. Nevada’s HFA and Bank of
                      America reached agreement in January 2011, and Nevada’s HFA launched its
                      pilot program in March 2011, one year after Nevada was selected for the
                      program.
                     Ohio’s HFA launched all four of its programs in September 2010 without
                      major servicers participating.
                     HFAs from California, Rhode Island, North Carolina, and South Carolina also
                      cited issues with the lack of large servicer participation.

                  For a timeline of HFAs’ pilot and statewide program launches between July 2010
                  and July 2011, with the date the first large servicer signed up to participate with
                  each HHF program, see Appendix H.

                  HFAs launched their program without large servicer participation, and as a result,
                  they could not reach all intended applicants. The HHF Program Director said that
                  the Office of Financial Stability (“OFS”) thought that the first two HHF rounds
                  would work with either community banks and credit unions alone, or one large
                  servicer in some states, and that they did not need to have all the large servicers
                  and the GSEs participating until the third round expanded the program to 19 states
                  and $4.1 billion. However, as stated above, the HFAs in the first two rounds cited
                  issues with the lack of large servicer participation. The largest mortgage servicers
                  account for a substantial percentage of loans and dollar volumes serviced, making
                  their participation key if HHF programs are to reach as many homeowners as was
                  intended. The four largest servicers – Bank of America, Wells Fargo and


                                                                                             April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                          21




                         Company (“Wells Fargo”), JPMorgan Chase & Co. (“JPMorgan”), and
                         CitiMortgage, Inc. (“CitiMortgage”) – together account for 53.9% of the top 50
                         firms’ dollars serviced.25 Several HFAs said participation by the largest servicers
                         would be necessary to assist a significant share of the struggling homeowners in
                         their states.

                         One HFA told SIGTARP that applicants were frustrated and wanted to know why
                         ramping up the programs took so long, and the reason was that the national banks
                         were not ready to jump in. Florida’s HFA explained, “Without big servicers, it
                         would take much, much longer to get the funds out, with just community banks
                         and credit unions. It would be a trickle of eligible applicants. Without the big
                         servicers, we would only be able to help about 50%” of the applicants the HFA
                         had originally estimated. Arizona’s HFA told SIGTARP that it could serve only
                         20% of the original estimate of applicants without the big servicers. North
                         Carolina’s HFA said if the big servicers are not on board, the HFA could help
                         only 25% of its estimate. Michigan’s HFA said that because the large servicers
                         were not involved, it was able to assist only a small percentage of the applicants
                         in its state. One HFA told SIGTARP that “without the servicers’ participation, it
                         would have been disastrous.”

                         Administrative Burden, Lack of Program Uniformity, and Lack of
                         GSE Guidance Made Servicers Hesitant To Participate in HHF

                         Treasury’s decision to decentralize program development resulted in more than 50
                         non-uniform programs, which created implementation issues for servicers. Some
                         of the large servicers said that without uniformity it was difficult to operate in the
                         more than 50 unique HHF programs offered by 19 different HFAs. One servicer
                         said its experience with HAMP, a single national program with one set of rules,
                         was less complex than HHF. Servicers said the large number of HHF programs
                         and their complexity posed an operational challenge for servicers to develop and
                         implement HHF infrastructure and properly train staff. Large servicers said HHF
                         would greatly tax their resources, given the number of programs and their lack of
                         uniformity. Servicers voiced concern over their capacity to implement required
                         systems and changes and asked for standardized information and a process for
                         each program. One large servicer explained that states were creating and rolling
                         out different programs and there was no standardization of programs. The
                         servicer explained that its staff had to learn each state’s different eligibility and
                         coding requirements and that “the volume was unprecedented.”

                         Treasury contacted large servicers after the program’s announcement, but until
                         November 2010, none of the four largest servicers had signed on to participate.

25
     According to analysis by Inside Mortgage Finance, the servicer arms of Bank of America, JPMorgan, CitiMortgage,
     and Wells Fargo are the largest servicers by total dollar volume serviced nationally for 1-4 family mortgages in 2011.
     Market share data were compiled by Inside Mortgage Finance, “Top Mortgage Servicers in 2011.”


                                                                                                                  April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                   22




                  Treasury emailed the largest servicers in April 2010 suggesting a working group
                  on the HHF program that included representatives from the largest servicers and
                  FHFA. The HHF working group met in May 2010. Bank of America also liaised
                  with Treasury and FHFA on the HHF program. One servicer explained that the
                  states designed their own programs “in a vacuum,” without knowing whether the
                  servicers would be able to execute the programs.

                  Servicers also cited the need for GSE guidance to begin participating in HHF
                  programs so they could ensure that they obeyed investor rules and acted correctly
                  in processing loans and applying funds received from state HFAs. HFAs
                  confirmed that large servicers identified the lack of GSE guidance as an obstacle
                  to their participation in HHF programs. One HFA told SIGTARP that there was
                  “no hint” of the big servicers’ participation until Fannie Mae and Freddie Mac put
                  out guidance.

                  Treasury told SIGTARP that after HHF expanded from $2.1 billion for 10 HFAs
                  to $4.1 billion for 19 HFAs in August of 2010, “it became clear that servicer and
                  GSE support would be critical to the full utilization of program funds.” However,
                  HFAs in the first two rounds told SIGTARP that because the large servicers were
                  not involved, they were able to assist only a small percentage of the applicants in
                  their states. The HHF Program Director told SIGTARP that OFS wanted states to
                  have an opportunity to innovate and develop their programs before involving
                  servicers, which might have pushed for too much uniformity early on. In fact,
                  servicers said they demanded and received uniformity and standardization
                  because the variety of programs was unworkable. SIGTARP found that
                  Treasury’s early experience in HAMP should have provided it a better
                  understanding of servicers’ needs and the effect that servicers’ participation
                  would have on a program’s success. SIGTARP found that, given Treasury
                  experience with HAMP and the sheer volume of mortgages held or guaranteed by
                  the GSEs, it should have been clear before HHF was announced that large
                  servicers and GSE support would be critical.

                  The GSEs exert considerable influence over the number of homeowners that the
                  HHF programs can reach because the GSEs own or guarantee 56% of the
                  53 million outstanding first-lien mortgages in the United States, according to a
                  June 2011 Freddie Mac analysis, the latest available. Moreover, the GSEs own or
                  guarantee 28% (18% Fannie Mae, plus 10% Freddie Mac) of the 4 million
                  seriously delinquent mortgages. Because Fannie Mae and Freddie Mac directly
                  control policy for more than half of the residential mortgage market, their support
                  for the HHF program is critical for the state programs to have a widespread effect.




                                                                                             April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                  23




                  Treasury Did Not Gain GSE Support for HHF Before Approving
                  State Programs

                  Treasury opened discussions with the GSEs early on, but Treasury did not secure
                  support for some HHF categories of programs that it had approved, delayed key
                  approvals for GSEs to accept TARP funds, and did not use its influence to obtain
                  GSE guidance critical for servicer participation until eight months after the
                  program launch.

                  Treasury met with the GSEs and FHFA in planning the rollout of HHF, but
                  Treasury did not determine what categories of programs the GSEs would support
                  before the state HFAs designed their programs. The GSEs and their
                  regulator/conservator FHFA told SIGTARP that Treasury contacted the GSEs in
                  early 2010 to discuss HHF and how to get the GSEs involved with HHF
                  programs. At that time, FHFA formed a working team with Fannie Mae and
                  Freddie Mac to discuss HHF participation and the guidance to be issued to
                  servicers. On April 1, 2010, two months after Round One of the HHF program
                  was announced and one month after Round Two was announced, FHFA directed
                  the GSEs “to discuss under FHFA auspices existing and possible new practices to
                  mitigate losses,” including “partnering with HFAs participating in the HFA
                  Hardest Hit Fund.”

                  A senior Treasury official told SIGTARP that Treasury’s role was to work with
                  the GSEs and gain their support for the types of assistance under HHF. However,
                  in the first six months of the program, Treasury approved HFA program proposals
                  without getting the buy-in of the GSEs. A Treasury official told SIGTARP that
                  HHF programs are voluntary and that Treasury cannot compel GSEs to
                  participate. The effect was very real on state HFAs. One HFA told SIGTARP
                  that it did not limit applications to its HHF program, but that it happened on its
                  own, explaining that when it rolled out its program, Fannie Mae and Freddie Mac
                  were not on board.

                  In addition, Treasury did not provide the GSEs with documentation needed to
                  issue HHF guidance to servicers until August 2010, six months after the program
                  was announced. Treasury became aware of the GSEs’ need for documented
                  authority for the GSEs to accept borrower payments from TARP funds in
                  April 2010. Treasury did not resolve the issue early on and therefore missed an
                  opportunity to resolve it before program rollout.




                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                      24




                        Treasury Convened a Servicer Summit with Key Stakeholders
                        Seven Months After Program Launch

                        Treasury organized a Servicer Summit in Washington, D.C., on
                        September 21, 2010, seven months after the announcement of the HHF program,
                        inviting major participants and stakeholders. At the time of the summit,
                        Round Three had already been announced, the announcement of Round Four was
                        seven days away, none of the largest servicers had signed on to any of the HHF
                        programs, and the GSEs had not issued any HHF program guidance. The
                        Servicer Summit was a turning point for HHF as the state HFA programs prior to
                        that were hobbled by lack of servicer participation and GSE support. One HFA
                        called the Servicer Summit “the first big step,” explaining that FHFA, the GSEs,
                        the big servicers, and the states looked to Treasury to instigate these
                        improvements. One large servicer told SIGTARP that prior to the Servicer
                        Summit, the interaction was fairly minimal, but after the summit, the large
                        servicers began to meet as a group on state-level issues.

                        At the Servicer Summit, servicers discussed a standard agreement between HFAs
                        and servicers and guidance from investors including the GSEs on how to treat
                        their loans under the HHF program. Treasury also communicated with the
                        guarantors ‒ such as FHA, the U.S. Department of Veterans Affairs (“VA”), and
                        the U.S. Department of Agriculture-Rural Development ‒ to obtain their
                        participation in HHF. The GSEs and FHFA prepared for the summit by outlining
                        the general terms under which the GSEs would participate in the HHF
                        unemployment program, providing what they called a broad set of expectations
                        for their participation. Some issues the servicers raised were resolved after the
                        summit, such as developing an HFA “common data file” format, which would
                        give the servicers standardized information from the HFAs, and obtaining
                        guidance on how to report mortgage interest payments to the IRS when states
                        cover any portion of mortgage payments.

                        The outcome of the Servicer Summit was the resolution of several issues that had
                        prevented GSEs and many servicers from participating in HHF. One large
                        servicer said that participants at the summit worked on standardization of
                        programs for HHF. The servicers agreed on a way to communicate with the
                        HFAs and on a participation agreement between servicers and HFAs. Treasury
                        finalized term sheets as a part of the participation agreements between Treasury
                        and each HFA that describe each HHF program. The GSEs and FHFA met
                        regularly following the summit to develop written guidance for servicers on
                        participating in HHF programs.26


26
     Treasury held a second summit on November 15, 2011, for states, servicers, and GSEs, and other stakeholders to
     discuss the status of the HHF program, issues that should be addressed, and opportunities to expand program
     participation.


                                                                                                               April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                         25




                         After the process and uniformity issues were addressed in the September 2010
                         Servicer Summit, Fannie Mae and Freddie Mac issued guidance to servicers on
                         October 29, 2010, directing them to accept funds from HFAs for mortgage loans
                         owned or guaranteed by the GSEs for only the HHF unemployment and
                         reinstatement programs.27 Neither guidance document provided an explanation of
                         why the GSEs supported the HHF unemployment and reinstatement programs,
                         but not other HHF programs; however, it may have been because the GSEs do not
                         have to fund any costs associated with these programs. For unemployment and
                         reinstatement programs, Treasury, rather than the homeowner, pays all or part of
                         the monthly mortgage payment or reinstatement payment without changing the
                         terms of the mortgage. The servicers, investors, and GSEs make no financial
                         sacrifices in the unemployment and reinstatement programs because the
                         mortgages are essentially paid by the Government in whole or in part.

                         Once GSE Guidance Was Issued, Large Servicer Participation in
                         Unemployment and Reinstatement Programs Greatly Increased

                         After the GSEs issued guidance, large servicer participation began and swiftly
                         rose, but only in the two types of HHF programs approved by the GSEs –
                         unemployment and reinstatement. One HFA told SIGTARP that Fannie Mae’s
                         and Freddie Mac’s direction in October 2010 “opened up HHF for the larger
                         lenders.” For two types of HHF programs approved by Treasury – unemployment
                         and reinstatement programs – the largest servicers are participating actively in the
                         19 states, and the GSEs, the Government insurer (FHA), and guarantors
                         (U.S. Department of Agriculture and VA) have issued servicer guidance or
                         encouraged servicer participation. Large servicers also indicated that other
                         investors and private mortgage insurers were generally willing to participate in
                         HHF unemployment and reinstatement programs.

                         According to the largest servicers, as of August 1, 2011, all 20 of the HHF
                         unemployment programs had at least three of the largest servicers participating,
                         and all seven HHF reinstatement programs had at least two participating. As of
                         December 31, 2011, unemployment and reinstatement programs accounted for 27
                         of the 55 HHF programs in place and 69% of the total $7.6 billion in HHF
                         program funding.




27
     Freddie Mac’s guidance was silent on the three other types of HHF programs approved by Treasury ‒ principal
     reduction, second lien, and transition assistance. Fannie Mae’s guidance said it would not support principal reduction
     and was silent on the other two.


                                                                                                                  April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                       26




                      GSEs and Servicers Rejected Some HHF
                      Programs, Leading States To Focus on Other
                      Programs
                      This section discusses Treasury’s inability to obtain GSE and servicer support for
                      all of the HHF programs offered. This affected participation levels in the
                      programs.

                      The GSEs rejected principal reduction programs, citing primarily moral hazard28
                      and execution issues. “Principal reduction could increase the incentive for
                      homeowners to become delinquent on their mortgage (i.e., increased ‘moral
                      hazard’ leading to more ‘strategic defaults’),” according to one GSE’s analysis of
                      HHF principal reduction supplied to FHFA. Freddie Mac officials told SIGTARP
                      that the moral hazard impact could affect the whole market, ultimately ending in
                      losses for the GSEs if homeowners able to pay their loan stopped paying in order
                      to get their principal reduced.

                      As the GSEs’ conservator, FHFA refused to have the GSEs participate in HHF
                      principal reduction programs. FHFA Executive Advisor David Pearl told
                      SIGTARP: “We have regular conversations with Fannie Mae and Freddie Mac as
                      their regulator and conservator. With any new policy action, FHFA has to give
                      them the green light.” FHFA did not “give [GSEs] the green light” and the GSEs
                      therefore have not participated in HHF principal reduction programs.29

                      Despite the GSEs’ stance on principal reduction, Treasury encouraged HFAs to
                      pursue principal reduction programs with individual lenders. “Principal reduction
                      is difficult. We have spent a lot of time with Fannie, Freddie, and FHFA, …”
                      former HPO Chief Caldwell told SIGTARP. “The GSEs were crystal clear in
                      their objections to principal reduction, which was not a secret to the
                      HFAs. That’s why we encouraged the HFAs to work on principal reduction
                      programs within servicers’ non-GSE book,” she said. “The overall message from
                      Treasury on principal reduction has been consistent in its guidance on tools for
                      foreclosure prevention ‒ it makes sense for certain HFAs. We have some initial
                      servicer support and can encourage more with or without the GSEs.” Officials of
                      three HFAs ‒ Arizona, California, and Nevada ‒ told SIGTARP that they worked

28
   Moral hazard occurs when a party is insulated against a risk (such as in the context of a Government assistance
   program) and may behave differently than if it bore the full risk. The Government Accountability Office (“GAO”)
   defines moral hazard related to principal reduction as the risk that borrowers would default on their mortgages to
   receive principal reduction when they otherwise would not have.
29
   Fannie Mae on October 26, 2011, and Freddie Mac on December 13, 2011, issued guidance to their servicers that
   require servicers to accept funds from HFAs that are assisting borrowers in qualifying for mortgage modifications as
   long as the GSEs and the servicer are not required to match the HFA assistance and certain other criteria are met. This
   guidance extends Fannie Mae’s and Freddie Mac’s October 2010 guidance beyond unemployment and reinstatement
   programs to include some modification assistance programs that Treasury classifies as principal reduction programs.


                                                                                                                April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                            27




                         together to focus on principal reduction and other issues they shared.
                         Subsequently Bank of America became the first large servicer to participate in
                         HHF first-lien principal reduction. It remains the only one as of the drafting of
                         this report.

                         FHFA, which determines whether Freddie Mac and Fannie Mae can participate in
                         HHF, told SIGTARP in February 2011 that GSE analysis showed that the target
                         population for HHF principal reduction was so small that operational costs would
                         offset any gains. The GSE analysis also cited concerns about the diverting of
                         resources from other projects. An FHFA official told SIGTARP it was a “systems
                         nightmare” for servicers to change their accounting and information systems to
                         accommodate HHF principal reduction terms. Guidance from Fannie Mae and
                         Freddie Mac was silent on second-lien and transition assistance programs.
                         Without GSE buy-in, large servicers generally would not agree to participate in
                         state HFA programs on principal reduction and transition assistance. Although
                         some lenders have signed on to HHF second-lien programs, participation has been
                         very low. One large servicer told SIGTARP that 80% of its portfolio is with
                         Fannie and Freddie, and said, “…We had to hold up on certain programs, waiting
                         for Fannie and Freddie.” Another large servicer told SIGTARP that “principal
                         reduction programs could have a big impact” on home foreclosures, but that 60%
                         to 80% of the loans the company services are GSE loans, and because the GSEs
                         will not participate in principal reduction, the servicer cannot process GSE loans
                         in HHF principal reduction programs.30

                         The GSEs, with their large market share, directed servicers to participate in the
                         unemployment and reinstatement programs, and these programs account for nearly all
                         (98%) of the HHF assistance provided to date. As of December 31, 2011, the latest data
                         available, according to Treasury only approximately 436 homeowners had received
                         principal reductions under HHF and only approximately 72 homeowners had received
                         transition assistance. According to Treasury, there may be a delay between when HFAs
                         approve homeowners’ applications for HHF assistance and when homeowners actually
                         receive funding. Therefore, the number of homeowners receiving assistance is
                         approximate due to this lag time between approval and funding. (See Figure 2 on the
                         following page and Table 2 on page 31.)




30
     Bank of America was the first and only large servicer to sign on to participate in HHF principal reduction programs,
     beginning with Nevada in January 2011, and later with Arizona, California, and Rhode Island, only for loans in its
     portfolio or third-party investor loans with appropriate authority delegations.


                                                                                                                  April 12, 2012
F
FACTORS AFFE
           ECTING IMPLEM
                       MENTATION OF THE HARDEST
                                              T HIT FUND PRO
                                                           OGRAM                                                                                     28



F
FIGURE 2
N
NEARLY ALL
         L OF HHF-AP
                   PPROVED AP
                            PPLICATION
                                     NS ARE FOR UNEMPLOY
                                                       YMENT
O
OR REINSTA
         ATEMENT PRROGRAMS, AS
                            A OF DECEMMBER 31, 20
                                                011


                                                   1%
                                                    %
                                                                     1%
                                                                      %

                                                                             20%
                                                                                            PRINCIPAL R
                                                                                                      REDUCTION - 16 programs


                                                                                 0.2%       2ND-LIEN RE
                                                                                                      EDUCTION - 4 p
                                                                                                                   programs


                           78%                                                              REINSTATEM
                                                                                                     MENT - 7 progra
                                                                                                                   ams


                                                                                            TRANSITION
                                                                                                     N ASSISTANCE - 8 programs


                                                                                            UNEMPLOYMMENT ASSISTA
                                                                                                                ANCE - 20
                                                                                            programs



                                                   To
                                                    otal HHF Applica
                                                                   ations Approve
                                                                                ed = 33,542


S
Source: HFA quarte
                 erly performance re
                                   eports through Dece
                                                     ember 31, 2011, an
                                                                      nd OFS program cllassifications. Tota
                                                                                                          als may not add to 100% due to round
                                                                                                                                             ding.




                           Givenn the lack of significant participation
                                                            p           n by the GSE Es and serviccers in princiipal
                           reducttion and trannsition assisttance prograams, the HFA  As, with Treaasury’s apprroval,
                           focuseed their alloccations on un nemploymennt and reinsttatement proograms. In thhe
                           third round,
                                 r      Treassury directed d the 18 statees receiving funding to ddevelop onlyy
                           unemp ployment an nd reinstatemment program  ms, in part too facilitate seervicer
                           participation in HHF.

                           With Treasury
                                  T        appproval, an HFA
                                                         H     may reaallocate fundds among its programs. A  As of
                           Decem mber 31, 20111, HFAs alllocated 58% % of the $7.6 billion in tootal HHF funnds to
                           unemp  ployment assistance programs, 19% to principall reduction pprograms, 111% to
                           reinstaatement proggrams, and 1%
                                                          1 each to ssecond-lien rreduction annd transition
                           assistaance. The HFAs
                                             H     allocatted 11% of tootal HHF funnds to adminnistrative
                           expennses, and admministrative expenses
                                                           e        am
                                                                     mong the stattes ranged frrom 7% to
                           18% ofo allocated funds
                                              f     as of December
                                                          D          3 1, 2011. Thhe funding foor the 55 HHHF
                           prograams falls in the
                                              t five prog gram categorries shown iin Figure 3 oon the follow
                                                                                                           wing
                           page.




                                                                                                                                         Aprril 12, 2012
F
FACTORS AFFE
           ECTING IMPLEM
                       MENTATION OF THE HARDEST
                                              T HIT FUND PRO
                                                           OGRAM                                                                           29



F
FIGURE 3
F
FUNDING FO
         OR HHF PROGRAMS BY TYPE
                            T    OF AS
                                     SSISTANCE T
                                               THROUGH D
                                                       DECEMBER 3
                                                                31, 2011

                                                                                                     PRRINCIPAL
                                                                                                     RE
                                                                                                      EDUCTION
                                                                                                    $1,4
                                                                                                       420,210,180
                                                                                                         19%

                                                                                                              2ND-LIE
                                                                                                                    EN REDUCTION
                                                                                                                               N
                                                                                                                   $8
                                                                                                                    83,298,292
                                                                                                                       1%

                                    UNEMPLOYME  ENT
                                     ASSISTANCE  E                                                                    R
                                                                                                                      REINSTATEMEN NT
                                     $4,382,850,56
                                                 67                                                                     $817,409,716
                                          58%                                                                              11%

                                                                                                                     TR
                                                                                                                      RANSITION
                                                                                                                     AS
                                                                                                                      SSISTANCE
                                                                                                                      $4
                                                                                                                       45,400,464
                                                                                                                         0.6%

                                                                                                               ADMIN
                                                                                                                   NISTRATIVE
                                                                                                                 EXPENSES
                                                                                                                   50,830,780
                                                                                                                 $85
                                                                                                                     11%
                                                Tota
                                                   al HHF Funding
                                                                g = $7,600,000,00
                                                                                00

S
Source: HFA participation agreements
                                   s through Decembe
                                                   er 31, 2011. Totals
                                                                     s may not add to 10
                                                                                       00% due to roundin
                                                                                                        ng.




                           As of December 31,3 2011, HH   HF has reachhed only 30,6640 (7%) off the HFAs’
                           estimaated range of the numberr of homeow wners to be aassisted throuugh 2017
                           (458,6 632-486,536
                                            6). To reach the estimateed number oof homeowneers, there muust be
                           a drammatic increasse over the number
                                                          n      of hoomeowners hhelped durinng the prograam’s
                           first tw
                                  wo years.

                           Two years
                                 y      into thee Hardest Hiit Fund proggram, Treasuury has proviided nominaal
                           assistaance to homeowners:31

                               $1
                                 10 million (0
                                             0.7%) of the $1.4 billion allocated foor principal rreduction;
                               $4
                                 43 million (5
                                             5.2%) of the $817 millionn for reinstaatement;
                               $2
                                 2 million (2.3
                                              3%) of the $83
                                                         $ million ffor second lien;
                               $2
                                 256,000 (0.6%) of the $4 45.4 million for transitioon assistancee; and
                               $1
                                 162 million (3.7%)
                                              (      of thee $4.4 billionn for unempployment asssistance.

                           Treasuury stated th
                                             hat it took tim
                                                           me for Treassury and the HFAs to staand up a neww
                           prograam, and this took the bettter part of a year to do. Treasury coould have
                                                           n increasing the infrastruucture for the HHF program
                           mitigaated the riskss involved in

331
      Amounts as of December 31,
                             3 2011.




                                                                                                                                    Aprril 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                       30




                      at 19 state HFAs by ensuring that the key stakeholders in the mortgage industry
                      were on board and actively participating early on. However, the HFAs should be
                      out of their ramp-up period and into full execution of the programs. Because
                      HHF’s assistance to homeowners has been nominal, the HFAs will have to
                      dramatically increase assistance to meet their own estimates for the number of
                      homeowners they intend to help by the end of 2017, when the program ends. In
                      the next section, SIGTARP discusses how Treasury needs to set appropriate
                      numeric goals and metrics to ensure that the expected number of homeowners
                      assisted is met.

                      However, as was clear in the beginning of HHF, the HFAs need Treasury’s help
                      and support to increase the number of homeowners helped. Treasury approved
                      HHF programs knowing that the GSEs did not support principal reduction
                      assistance. In October 2010, the GSE guidance issued for HHF was silent on
                      supporting transition assistance programs.32 These programs continue in HHF ‒
                      with limited participation. Treasury also has these very same types of assistance
                      in other TARP-funded housing support programs, including HAMP. Participation
                      in HHF principal reduction programs has been limited, even though investor
                      incentives were generally double that initially offered in HAMP, and GSEs have
                      opted not to reduce principal on any cost-sharing basis for HHF programs.
                      Because HAMP was having similar issues, Treasury recently took steps to further
                      increase the number of homeowners assisted in HAMP by tripling the incentives
                      paid to investors for HAMP principal reduction and making those incentives
                      available to GSEs without making a corresponding change in HHF.

                      After nearly two years,33 HFAs have assisted 7% of the homeowners they
                      expected to assist over the life of the program. HFAs have spent only
                      approximately $217 million (3% of the funds allocated for the program) for
                      assistance to homeowners. (See Table 2 on the following page.) To expedite
                      assistance to homeowners, Treasury should develop an action plan that includes
                      steps that Treasury intends to take to increase dramatically the numbers of
                      homeowners assisted in all the programs, including the two known areas Treasury
                      supports but are lacking broad industry support ‒ principal reduction and second-
                      lien reduction. Further, if in a reasonable time Treasury cannot achieve the
                      desired level of homeowners assisted in any one type of assistance ‒ for example,
                      principal reduction, second-lien reduction, or transition assistance ‒ Treasury
                      should put the funds to better use toward programs that are reaching homeowners.




32
   On March 6, 2012, Fannie Mae issued servicer guidance directing servicers to facilitate HHF transition assistance
   provided to borrowers for loans it owns and for certain securitized loans.
33
   As of December 31, 2011.


                                                                                                               April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                           31




            TABLE 2

             PERCENT OF HHF USAGE AND TIME ELAPSED
                                       Applications
            HHF Program                Approved by                   Spent by                     Allocated as of
            Categories                 Dec. 31, 2011             Dec. 31, 2011                     Dec. 31, 2011              Percent
            Principal
                                              436                 $10,397,621                     $1,420,210,180                0.7%
            Reduction
            Unemployment
                                          26,100                $162,146,435                      $4,382,850,567                3.7%
            Assistance
            Reinstatement                   6,764                 $42,744,862                       $817,409,716                5.2%
            Second-Lien
                                             170                   $1,882,683                         $83,298,292               2.3%
            Reduction
            Transition
                                                 72                  $255,771                         $45,400,464               0.6%
            Assistance
            Administrative
                                             –                                –                     $850,830,780                    –
            Expenses*
            Total                         33,542                $217,427,372                      $7,600,000,000                3.2%


                                                                                             Average of Aggregate
                                                                Homeowners                   Number of
                                                                Assisted as of               Homeowners HFAs
                                                                Dec. 31, 2011                Plan To Assist
                                                                                             Through 2017
            Homeowners                                                  30,640                           475,000**              6.5%

                                                             Months Elapsed:                 Total months in
                                                                                             program:
                                                             February 2010 to
                                                                                             February 2010 to
                                                              December 2011                  December 2017
            Months                                                           23                                  95             24%
            Note: *This percentage is the total spent on programs as a percent of the total amount allocated to programs ($7.6 billion less
            administrative expenses).
            ** This number is an average of the high and low estimated number of homeowners HFAs plan to assist, rounded up to the
            nearest 5,000.
            Source: SIGTARP analysis of HFA quarterly performance reports and latest state participation amendments as of December 31, 2011.




                                                                                                                                  April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                    32




                  Treasury’s Goals and Metrics Fall Short and
                  Make Effective Evaluation Difficult
                  This section discusses the goals and metrics for HHF. Treasury set a goal to
                  prevent avoidable foreclosures but did not define measurable targets for this.
                  Treasury required HFAs to set goals for each of their programs, but most HFAs
                  set nonnumeric goals.

                  Treasury’s goals and metrics for the HHF program fall short of those used in best
                  practices and make effective program evaluation difficult. Best practices for
                  results-oriented organizations are to define goals and desired outcomes, set
                  overall and incremental measurable targets to gauge progress, and use
                  performance information as a basis for decision making. Treasury’s stated goal
                  for the overall HHF program is to prevent avoidable foreclosures and thereby
                  preserve homeownership, but Treasury did not set a measurable overall target or
                  require states to produce measurable goals. Treasury does require states to
                  estimate the number of households that will participate in the states’ HHF
                  programs, but this number has limited usefulness because states can and have
                  changed estimates, creating a shifting baseline. In fact, the aggregate of these
                  estimated ranges has steadily decreased in the last year, from 507,619–549,094 as
                  of March 31, 2011, to 458,632–486,536 as of December 31, 2011.

                  In addition, Treasury does not publicly report HHF performance information.
                  Treasury’s website provides links to performance data on HFAs’ websites, but
                  Treasury does not publish aggregate HFA data or connect the data to goals for
                  HHF. Tracking performance of all HHF programs would require a taxpayer to
                  gather pieces of information from 19 separate HFA websites, but it is not clear
                  how the data can be used to assess the program. Treasury totals the number of
                  homeowners assisted and dollars expended by all states on HHF programs, but
                  does not make these aggregate statistics public. As a result, it is difficult for
                  Congress and the public to assess HHF program performance. Therefore,
                  SIGTARP publishes in its Quarterly Report to Congress the total of the HFAs’
                  estimated numbers of homeowners to be served, the actual number of
                  homeowners assisted, and the dollars expended by all states on HHF. Treasury, in
                  its oversight role for $7.6 billion in TARP funds, should publish the HFAs’
                  performance data collectively, in one place, in a format that facilitates
                  comparisons across HFAs, programs, and time.

                  Treasury and Most HFAs Did Not Set Numeric Goals

                  In Government and business, goals and metrics are vital tools to clearly measure
                  implementation and progress of programs. However, Treasury did not establish
                  overall goals for HHF that are clear, reliable, objective, measurable, and linked to
                  higher-level goals. Instead, it deferred to the individual HFAs to establish goals


                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                      33




                  for their individual programs and did not require these goals to be measurable. In
                  addition, Treasury did not require HFAs to establish at least one goal that is
                  consistent across the HFAs, resulting in a single goal for the program. This would
                  allow an assessment of HHF in its entirety. Treasury told SIGTARP that
                  Treasury’s goal – instead of setting measurable targets against which to assess
                  performance data – is to continually improve the performance of the program over
                  time, taking into account the context in which the program operates, such as
                  changing market conditions and differing local conditions. Treasury refers to this
                  as its “continuous improvement” model. Treasury says that it uses a “feedback
                  loop” to help HFAs improve the performance of HHF programs. Treasury told
                  SIGTARP that HFAs have made more than 80 changes to HHF programs based
                  on discussions with Treasury.

                  The former Assistant Secretary for Financial Stability, Herbert Allison, told
                  SIGTARP that Treasury did not want to impose measurable goals on the HFAs
                  but wanted each state to develop its own. Another Treasury official told
                  SIGTARP that the states, not Treasury, should report data that show progress,
                  saying, “This is not our program. These are their programs.” However, the
                  source of the funds for all HHF programs is the Federal Government, with
                  Treasury as the steward over TARP funds. Congress and the public rightfully
                  expect Treasury to administer the program and ensure that TARP funds are
                  appropriately spent and are achieving the desired goals.

                  Treasury initially considered requiring HFAs to establish targets and metrics for
                  HHF programs in their agreements with Treasury, but later eliminated this
                  requirement. In April 2010 and May 2010, draft versions of the agreement
                  included a requirement for HFAs to specify “performance metrics” and later
                  “program success metrics.” As an example, Oregon initially listed goals in its
                  agreement for 90% of program participants to remain in their homes after one
                  year. One OFS official supported requiring goals to benchmark success. On the
                  other hand, another OFS official preferred not to require measurable targets for
                  new programs, and suggested that stating a target would probably set a program
                  up for failure. Treasury also initially considered and then rejected using
                  performance metrics to determine whether HFAs could continue to draw down
                  HHF funds.

                  Based on SIGTARP’s review of the 19 agreements, most program goals are high
                  level and describe what the HFAs want their programs to achieve in broad terms,
                  with no numeric measurable targets. For example, Florida’s Unemployment
                  Mortgage Assistance Program goal is: “preserving homeownership” and
                  “protecting home values.” South Carolina’s HAMP Assistance Program goal is:
                  “To provide limited funding to help homeowners become eligible for HAMP.”
                  However, five of the 19 states did set numeric program goals. Three of those five
                  states (Georgia, Nevada, and North Carolina) used their estimates for the number
                  of households to be served as program goals. Arizona set a goal for one of its


                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                        34




                        programs to achieve a 90% success rate in modifying loans. California set a
                        numeric goal for one of its programs to have 21% of principal write-downs
                        contributed by a city grant. In addition, the measurable goals the states establish
                        are a moving target ‒ HFAs can change their program goals with Treasury
                        approval in amendments to the original formal agreement. For example, Nevada
                        had a goal for its Principal Reduction Program to serve at least 3,000 homeowners
                        in April 2011. In the sixth amendment to its agreement with Treasury in
                        October 2011, the HFA dropped that numeric goal and reduced the estimated
                        number of households to be served by the program from 3,016 to 1,008, while
                        increasing the maximum per-household assistance. Appendix K lists the HFAs’
                        program goals for the 55 HHF programs, as of December 31, 2011.

                        HFAs Publish Quarterly Numeric Data on Their Own Websites, but
                        Without Stated Numeric Goals, It Is Difficult To Assess Performance

                        Treasury’s agreements with HFAs require each HFA to report the same
                        performance data elements to Treasury in a standardized format and to post the
                        information on their own websites, but Treasury does not publish the data either
                        by individual HFA or in the aggregate. The quarterly performance reports34
                        contain more than 25 data points about each program and more than 15 data
                        points about an HFA’s programs in the aggregate. For example, the quarterly
                        performance reports include data such as the number of applications approved and
                        denied, the number of homeowners assisted, the range of borrower incomes, the
                        number of homeowners in each county, the number of homeowners by race and
                        ethnicity, and the number of homeowners who remain in their homes after six
                        months and 12 months.

                        These data points can be compared from quarter to quarter. Although these
                        measures are helpful for determining whether activity is occurring in each
                        program, Treasury has not established desired outcomes to assess whether these
                        activities are meeting intended targets and whether they can add up to an overall,
                        measurable performance goal. For example, if an HFA reports that 25% of
                        homeowners in an HHF program remained in their homes six months after
                        receiving HHF assistance, this performance could be compared to the
                        performance of other states or programs, but Treasury and HFAs have not
                        established a target to show what performance they intended.

                        Treasury’s HHF Program Director described a three-step process for evaluating
                        HHF programs. He told SIGTARP that to evaluate HHF, one would:




34
     See Appendix J for a template/data dictionary of the quarterly performance report that Treasury provided to HFAs
     describing each data element.


                                                                                                                April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                  35




                     look at the HFA’s goals for its HHF programs for what HFA officials
                      intended to do (HHF program goals are in agreements posted on Treasury’s
                      website);
                     look at the HFA’s quarterly performance reports for what it did (HFA
                      quarterly performance reports are posted on each of the 19 HFA websites);
                      and
                     contact the HFA and other stakeholders for context and explanation of how
                      the program is working.

                  Estimates of the Number of Participating Households That Change
                  Each Quarter Have Limited Value for Assessing Performance

                  Treasury requires HFAs to establish in their agreements with Treasury estimates
                  of the number of households that each of their HHF programs will assist through
                  2017, but Treasury allows HFAs to revise their estimates anytime by amending
                  the agreements. The HFAs’ estimates of the numbers of households to be assisted
                  have changed over the life of the HHF program (decreasing since
                  March 31, 2011) and do not provide a consistently measurable target. Evaluating
                  performance against a shifting baseline presents a challenge to assessing program
                  outcomes. If the estimate of the number of households to be assisted changes,
                  consistent performance measurement over the life of the program is not possible,
                  progress is no longer measured based on a goal established at the outset, and
                  opportunities for accountability to the public are diminished. HFAs can change
                  their estimates when they shift funds between programs, change the amount of
                  per-household assistance in a program, or change the amount allocated to
                  administrative expenses. Each type of adjustment can change the number of
                  households that can be helped. As a result, these estimates are of limited value
                  for performance measurement.

                  Best Practices Call for Setting Goals and Measuring Program
                  Performance

                  According to an official in the Treasury Office of Strategic Planning and
                  Performance Management, to follow good management practice that in turn
                  would reflect HHF progress toward meeting its goal, Treasury should establish a
                  mix of performance measures for activities the organization can hold itself
                  accountable to and indicators that show the intended effect or outcomes of the
                  program or activity. When asked by SIGTARP whether Treasury’s approach of
                  setting one broad operational goal without setting performance measures or
                  indicators allows for measurement of the HHF program, the official said it means
                  that one cannot evaluate, but can only infer the program’s performance and




                                                                                           April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                      36




                        results. The official told SIGTARP that Treasury could report HHF performance
                        in the monthly Housing Scorecard published by HUD and Treasury.35

                        Treasury has not defined desired quantifiable outcomes for HHF. Treasury has
                        resisted measuring performance to gauge progress at the Federal level, saying
                        HHF programs are the states’ programs. Treasury required HFAs to estimate the
                        number of households to be served, but these estimates change. Treasury has
                        performance data from individual HFAs, but it does not have measurable
                        performance information that ties to program-wide goals with which to make
                        appropriate decisions.

                        Rather than follow best practices by establishing performance metrics by which
                        Treasury can be held accountable, Treasury officials expressed several concerns
                        with using numeric targets:

                           numeric targets for a new program in an ever-changing housing market will
                            have little or no value, especially across states with different economic
                            conditions;
                           numeric goals may lead to a “ceiling effect” (if the goals are too low); and
                           numeric goals may create incentives for unwanted actions such as HFAs
                            pursuing a type of foreclosure assistance to meet a goal rather than
                            implementing the right type of assistance for each borrower’s situation.

                        At the start of HHF, Treasury should have set one or more measurable
                        performance goals for the HHF program overall, including, at a minimum, the
                        number of homeowners Treasury hopes to help under HHF, a number that should
                        not change each quarter. However, it is not too late for Treasury to set these
                        goals. For each goal, Treasury should have established metrics to measure the
                        performance of the program against the goal. Additionally, Treasury should have
                        established milestones and a periodic schedule to assess the progress the HHF
                        program is making toward the intended outcome. Finally, Treasury should use
                        this performance information as a basis for working with the state HFAs to make
                        program adjustments as needed to ensure the success of the program at meeting
                        its goals.

                        Setting measurable performance goals is not difficult. For example, Treasury
                        could at a minimum adopt the HFAs’ collective estimates of homeowners to be
                        assisted through 2017. Treasury should set interim goals to target the intended


35
     The Housing Scorecard reports on the status of the nation’s housing market, providing key housing market indicators
     and highlighting Government programs, including HAMP. The scorecard lists HHF as part of the Administration’s
     housing plan, but does not report HHF performance metrics, as it does for HAMP. Treasury also produces a
     Monthly 105(a) Report for TARP that includes the amount of HHF funds drawn and a narrative update on the HHF
     program, such as which HFAs have made recent changes to their programs. However, the report does not assess HHF
     performance based on predetermined measures.


                                                                                                               April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                  37




                  progress of the program. For example, Treasury could set interim goals, such as a
                  number of homeowners that the program should reach each year.

                  In addition, Treasury should have ensured that states set measurable goals and
                  related metrics to assess performance for each HFA. Treasury should also require
                  states to provide the specific performance data it needs to roll up to any overall
                  and interim goals, and if necessary, the methodology and calculations states
                  should perform to arrive at these data.




                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                  38




                  Conclusions
                  The Hardest Hit Fund was announced in February 2010 when the housing market
                  was still under significant stress, despite Government efforts to address record-
                  high foreclosures with programs such as TARP’s HAMP. A senior Treasury
                  official told SIGTARP that the idea of the Hardest Hit Fund came from an
                  examination of options to tackle home foreclosure economic challenges such as
                  negative equity and unemployment not being addressed by HAMP. The Treasury
                  official told SIGTARP that at the end of 2009 (when HHF was being developed),
                  unemployment was hovering around 9%, and one in four homes was underwater.

                  Under HHF, TARP dollars fund “innovative measures” developed by state
                  housing finance agencies (“HFAs”) and approved by Treasury to help families in
                  states that had been hardest hit by the economic crisis and the collapse of the
                  housing bubble. HHF expanded from its original announcement of $1.5 billion in
                  TARP funds for five states with 20% home price declines in four iterative rounds
                  of funding. Each round had specific criteria, resulting in Treasury obligating a
                  total of $7.6 billion in TARP funds to 18 states and Washington, D.C. The 19
                  HFAs could propose multiple programs within categories of assistance for
                  Treasury approval. As of December 31, 2011, Treasury had approved 55 HHF
                  programs, which have through 2017 to use TARP funds.

                  After two years, the Hardest Hit Fund has experienced significant delay in
                  providing help to homeowners due to several factors, including a lack of
                  comprehensive planning by Treasury and a delay and limitation in participation in
                  the program by large servicers and the GSEs (Fannie Mae and Freddie Mac). As
                  of December 31, 2011, the latest data available, HHF has spent only
                  $217.4 million to provide assistance to 30,640 homeowners – approximately
                  3% of the TARP funds allocated to HHF and approximately 7% of the minimum
                  number of homeowners whom the state HFAs estimate helping over the life of the
                  program. Nearly all (98%) of the help provided to homeowners under HHF has
                  been related to unemployment assistance or reinstatement through payment of
                  past due amounts, the only types of assistance for which the GSEs directed
                  servicers to participate. The great bulk (78%) of the HHF help to homeowners
                  has been for unemployment assistance. Unless there is a drastic change in the
                  assistance the GSEs and their conservator, FHFA, will support, the Hardest Hit
                  Fund may be much narrower in scope and scale than what was originally expected
                  due to the lack of servicer and GSE support for certain programs. Without
                  significant change, while the Hardest Hit Fund may be able to reach unemployed
                  homeowners as was originally intended, it is likely to be limited in addressing
                  negative equity for homeowners who are underwater.

                  SIGTARP found that Treasury consistently applied its criteria to choose states to
                  participate in the first three rounds of funding for HHF. However, in the second


                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                    39




                  round, it was unclear why Treasury determined that states with high percentages
                  of their population in counties with an unemployment rate greater than 12% were
                  economically distressed, but that states with 11% unemployment were not. The
                  cutoff for Treasury’s selection of states in Round Two was not transparent
                  because one percentage point divided Ohio (with 22% of its population living in
                  counties with an unemployment rate higher than 12%), which was selected, and
                  Tennessee (with 21%), which was not selected until five months later, when
                  Treasury made another round of funding to all states, including Tennessee, with
                  above-average unemployment. For the fourth round, no new states were selected.
                  Rather, Treasury nearly doubled the funds available for HHF four days before the
                  expiration of Treasury’s TARP investment authority. Treasury determined that
                  the five categories of assistance it approved were compliant with TARP’s
                  requirement that programs prevent avoidable foreclosures and rejected other
                  proposed programs for not having a sufficient link to this requirement. The five
                  categories Treasury approved are: (1) principal reduction; (2) second lien;
                  (3) reinstatement through payment of past due amounts; (4) unemployment; and
                  (5) transition assistance.

                  SIGTARP was unable to analyze whether Treasury consistently applied its criteria
                  for rejecting individual state programs because Treasury has not provided
                  additional explanation of the rejection except for its rationale for rejecting legal
                  and housing counseling programs as not being specifically authorized by EESA or
                  necessary for the implementation of HHF. Treasury did not define “innovative”
                  or perform an analysis of whether proposed programs were innovative or
                  duplicative of other programs, instead considering the design of the program to be
                  innovative because it provides locally tailored solutions. The GSEs, FHA, three
                  of the largest servicers, and an academic told SIGTARP that they generally
                  agreed that HHF has innovative aspects because it provides different types of
                  assistance at a local level, helps homeowners for longer periods of time, or
                  provides greater funding to respond to the housing crisis.

                  Treasury has not set measurable goals and metrics that would allow Treasury, the
                  public, and Congress to measure the progress and success of HHF. Treasury set a
                  single goal for HHF: to prevent avoidable foreclosures and help preserve
                  homeownership. Treasury instead deferred to individual states to set goals but did
                  not require states to set measurable goals. Most states’ goals are high-level
                  expectations with no measurable targets, such as Florida’s “preserving
                  homeownership” and “protecting home values.” Treasury does require states to
                  estimate the number of households to be assisted by their HHF programs, but this
                  number has limited usefulness because states can, and have, changed estimates,
                  creating a shifting baseline that makes it difficult to measure performance against
                  expectations. The states’ estimated number of homeowners to be assisted by
                  HHF has steadily decreased over the last year. As of December 31, 2011, the 19
                  HFAs collectively estimate helping between 458,632 and 486,536 homeowners
                  over the lifetime of HHF, which will end in 2017. Treasury has not adopted this


                                                                                             April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                     40




                  estimate or even reported it. Consistent with best practices, Treasury should have
                  set meaningful and measurable goals at the start of the program. However, it is
                  not too late for Treasury to set measurable goals, including at a minimum,
                  adopting the HFAs’ collective estimate or developing its own goal of how many
                  homeowners Treasury expects HHF to help.

                  The 19 individual HFAs have provided a significant amount of transparency on
                  their 55 HHF programs on their websites as required by Treasury; however,
                  Treasury can do more to improve transparency. Tracking performance of all HHF
                  programs would require a taxpayer to gather information from 19 separate HFA
                  websites. Treasury aggregates the number of homeowners assisted and dollars
                  expended by all states on HHF programs, but SIGTARP, not Treasury, publishes
                  this information. Treasury should publish this information, along with other
                  useful information on HHF’s performance, on its website and in the monthly
                  Housing Scorecard that reports on the Administration’s efforts in housing
                  programs, such as HAMP. A Treasury official told SIGTARP that it is
                  appropriate to leave reporting of the data to the states: “This is not our program.
                  These are their programs.” However, HHF is a TARP program, the source of the
                  funds is TARP, and Treasury is the steward over TARP. Congress and the public
                  rightfully expect Treasury to administer the program and ensure that TARP funds
                  are appropriately spent and are achieving the desired goals.

                  SIGTARP found that several factors contributed to the Hardest Hit Fund’s
                  significant delay in getting assistance to homeowners, some of which have been
                  successfully resolved, and some of which are likely to continue to affect the
                  program:

                     HHF lacked comprehensive planning by Treasury, which rushed out the
                      program without appropriate collaboration of key stakeholders, including state
                      HFAs, large mortgage servicers, and the GSEs (Fannie Mae and Freddie
                      Mac). In the creation of HHF, Treasury solicited input from mortgage
                      industry participants, but in planning the program, it did not gather all key
                      stakeholders together to anticipate and assess needs, participation, and barriers
                      for effective implementation of the program. HHF suffered from a rushed
                      rollout of state HHF programs without a comprehensive implementation plan
                      by Treasury that would ensure success. Treasury delegated program
                      development to state HFAs, but generally gave one to two days’ notice to state
                      housing officials before announcing that they would receive TARP funds and
                      would have approximately six to eight weeks to develop programs. Despite
                      the fact that the states could not reach a significant amount of homeowners
                      unless large servicers agreed to participate, Treasury did not contact some of
                      the largest servicers to gain their support until April 2010, and did not resolve
                      large servicers’ issues sufficiently for them to participate with states until
                      November 2010, after a Treasury-convened Servicer Summit. Treasury
                      opened discussions with the GSEs early on, but did not do enough initially to


                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                   41




                      secure support for some HHF programs. SIGTARP found in its
                      March 25, 2010, audit of HAMP that “taking more time at the outset to
                      adequately plan” may have resulted in assisting more homeowners more
                      quickly. Similarly, had Treasury taken more time to adequately plan HHF, it
                      may have helped the state HFAs gain support for their programs from large
                      servicers and GSEs, and resulted in more homeowners receiving help during
                      the first two years of the program. One large servicer said it best: “Anytime
                      all the parties can be involved in a program, the more success you will have. I
                      think that if Treasury, the states, and the servicers were involved earlier on,
                      that the program would be more successful and further along.”

                     Treasury’s decision to give one to two days’ notice to states and six to eight
                      weeks to develop programs caught several states off guard. One HFA official
                      told SIGTARP that 10 minutes after the program was announced, the HFA
                      began receiving phone calls from the public asking when the money would be
                      available. The office received 200 calls in the first 24 hours. HFAs had six to
                      eight weeks to develop their programs. Treasury provided informal guidance
                      throughout these weeks and the HFAs gathered public input. The HFAs also
                      had to build or change their processes and hire and train staff. One HFA had
                      seven employees dedicated to HHF and had to increase its staff for HHF by
                      500%. Another state HFA said that it had to scramble and get a network into
                      place. One HFA official explained to SIGTARP that the HFA “was not
                      prepared to deal with the tsunami of the HHF.”

                     Several states delayed HHF programs because the large mortgage servicers
                      were not participating. One great shortcoming in HHF’s implementation was
                      Treasury’s lack of timely action to enlist large servicer support for and
                      participation in state HHF programs. Treasury officials told SIGTARP that it
                      was up to the HFAs to negotiate with the servicers. HFAs reported to
                      SIGTARP that they were rebuffed by the large servicers. Several HFAs told
                      SIGTARP that their primary challenge with the implementation of HHF was
                      the lack of participation by the large servicers, with one HFA official
                      explaining that on a scale of one to 10, “this was a 10.” Without the
                      participation of the large servicers, the HFAs’ programs could not reach a
                      large portion of struggling homeowners. One HFA explained, “Without big
                      servicers, it would take much, much longer to get the funds out, with just
                      community banks and credit unions. It would be a trickle of eligible
                      applicants.” Some HFAs told SIGTARP that without the largest servicers,
                      they would have been able to help only 20% to 50% of applicants. Another
                      HFA told SIGTARP, “Our biggest complaint is we were provided these funds,
                      and we have such a need here, but we weren’t able to handle the mass
                      numbers because of no participation from the large lenders.” One HFA told
                      SIGTARP that “without the servicers’ participation, it would have been
                      disastrous.”



                                                                                             April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                       42




                     Large servicers did not participate for the first nine months of the program
                      citing administrative burden of more than 50 different programs, lack of
                      program uniformity, and lack of GSE guidance. One large servicer said that
                      its experience with HAMP, a national program, was less complex than HHF.
                      Servicers told SIGTARP that the large number of HHF programs and their
                      complexity posed an operational challenge for servicers to develop and
                      implement HHF infrastructure and properly train staff. One servicer
                      explained to SIGTARP that with each state’s differing eligibility and coding
                      requirements, “the volume was unprecedented.” In addition, servicers cited
                      the need for GSE guidance before they could begin participating in HHF
                      programs so they could ensure that they acted correctly in obeying investor
                      rules, processing loans, and applying funds received from the states. One
                      servicer explained that the states designed their HHF programs “in a vacuum,”
                      without knowing whether the servicers would be able to execute the programs.

                     Treasury did not initially use its influence on the largest servicers to gain their
                      support. By leaving the responsibility of recruiting large servicers to the
                      states and not taking more aggressive efforts to gain servicer support for the
                      state programs, Treasury failed to recognize the lack of bargaining power that
                      states had for recruiting servicers. Florida’s HFA official explained to
                      SIGTARP, “The one billion dollars has been a nice carrot to use for servicers
                      in Florida, but there is no stick with the carrot to force servicers to
                      participate.” One HFA told SIGTARP that it would have been helpful if
                      Treasury had been more aggressive in getting large lenders to participate.
                      Treasury officials chose to decentralize program development with the HFAs,
                      but their lack of comprehensive planning, such as involving servicers early on,
                      resulted in Treasury not anticipating and initially not addressing the
                      implementation issues that approximately 50 non-uniform programs created
                      for servicers. SIGTARP found that Treasury’s experience with HAMP should
                      have provided a better understanding of servicers’ needs and the effect that
                      servicers’ participation would have on a program’s success. Several state
                      HFAs delayed programs until the large servicers came on board, which did
                      not happen until the GSEs issued guidance on October 29, 2010. One large
                      servicer told SIGTARP that 80% of its portfolio is with the GSEs, explaining,
                      “… We had to hold up on certain programs, waiting for Fannie and Freddie.”

                     Treasury did not gain GSE support for HHF programs until eight months after
                      the announcement of the program. Treasury, responsible for HHF oversight
                      and accountable for HHF results, should have been the driving force to ensure
                      that the GSEs and large servicers supported the HFAs’ programs. Although
                      Treasury sought GSE guidance in creating the program, it did not use its
                      influence to gain GSE support for state HHF programs for the first eight
                      months of the program. One Treasury official told SIGTARP that after HHF
                      expanded from $2.1 billion for 10 HFAs to $4.1 billion for 19 HFAs in
                      August 2010, “it became clear that servicer and GSE support would be critical


                                                                                                April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                         43




                             to the full utilization of program funds.” However, HFAs in the first two
                             rounds told SIGTARP that because the large servicers were not involved, they
                             were able to assist only a small percentage of applicants. SIGTARP found
                             that, based on Treasury’s experience with HAMP and the sheer volume of
                             mortgages held or guaranteed by the GSEs, it should have been clear before
                             the announcement of HHF that large servicers and GSE support would be
                             critical.36 In addition, Treasury was aware before August that no large
                             servicers had signed on.

                        The largest servicers did not participate in HHF and the GSEs did not issue
                        guidance to servicers on HHF until Treasury formally interceded by holding a
                        Servicer Summit in September 2010, when it brought all of the key stakeholders
                        together. This summit was a turning point, and out of it came the resolution of
                        several issues such as process standardization and GSE guidance that had
                        prevented GSEs and large servicers from participating in HHF.

                        The GSEs’ guidance issued on October 29, 2010, to servicers stated that the GSEs
                        supported mortgage assistance programs for unemployed or underemployed
                        homeowners and programs to reinstate past due amounts on mortgages. These
                        two programs require no financial sacrifice from the servicers or investors. GSEs
                        examined principal reduction in connection with HHF and concluded that
                        principal reduction could increase moral hazard by incentivizing homeowners to
                        become delinquent on their mortgages. Without GSE buy-in, large servicers
                        generally would not agree to participate in HHF principal reduction, and transition
                        assistance programs for those loans with the GSEs. Although some servicers
                        have signed on to HHF second-lien programs, participation has been very low.
                        One large servicer told SIGTARP that 80% of its portfolio is with the GSEs.
                        Another large servicer told SIGTARP that 60% to 80% of its servicing book is
                        GSE loans, and because the GSEs are not participating in principal reduction, the
                        servicer cannot process GSE loans in HHF principal reduction programs.
                        Treasury approved 16 HHF principal reduction programs, knowing that the GSEs
                        did not support principal reduction. Treasury encouraged HFAs to work on
                        principal reduction programs with servicers’ mortgages that were not owned by
                        the GSEs, but so far the results of those efforts have been minimal. As of
                        December 31, 2011, the latest data available, approximately 436 homeowners
                        have received principal reductions under HHF.

                        HHF eventually may be effective in the areas where there is broad GSE and large
                        servicer support such as unemployment and reinstatement through payment of
                        past due amounts. Unless there is a drastic change in the assistance the GSEs and
                        their conservator, FHFA, will support, HHF may be limited in the types of
                        homeowners it can reach. While it may be able to reach homeowners who are

36
     The GSEs own or guarantee 56% of the 53 million outstanding first-lien mortgages in the United States as of
     June 2011, according to Freddie Mac.


                                                                                                                   April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                     44




                  unemployed, underemployed, or have past due amounts that can be reinstated,
                  without a significant change by the GSEs or servicers, it is likely to be limited in
                  reaching homeowners who are underwater, have mortgages with second liens, or
                  need transition assistance, including a short sale or deed-in-lieu of foreclosure.

                  Because Treasury does not set performance metrics for the various programs
                  under HHF, it is not clear whether providing approximately 436 homeowners with
                  principal reduction assistance meets performance expectations for the first two
                  years of the program. However, at this rate it is unlikely that Treasury will spend
                  the $1.4 billion allocated to HHF principal reduction without taking other actions.
                  Treasury should seek to apply lessons learned from HAMP to give state HFAs the
                  support that they need. For example, Treasury recently announced that it will
                  triple its incentives for principal reduction in HAMP. Treasury should work with
                  the state HFAs to determine whether a change is appropriate in any of the 16 state
                  HHF principal reduction programs.

                  In order to reach the number of homeowners that the HFAs collectively estimate
                  helping over the life of HHF, there needs to be a dramatic increase in the number
                  of homeowners helped. As was clear in the beginning of HHF, states need
                  Treasury’s help and support to increase the number of homeowners helped.
                  Treasury should do all that it can to ensure the program’s success. Treasury
                  should set measurable goals, measure progress against those goals, and develop
                  an action plan to ensure that the next five years result in the HHF program
                  fulfilling TARP’s goal to preserve homeownership.




                                                                                               April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                  45




                  Recommendations
                  1. Treasury should set meaningful and measurable performance goals for the
                     Hardest Hit Fund program including, at a minimum, the number of
                     homeowners Treasury estimates will be helped by the program, and measure
                     the program’s progress against those goals.

                  2. Treasury should instruct state housing finance agencies in the Hardest Hit
                     Fund to set meaningful and measurable overarching and interim performance
                     goals with appropriate metrics to measure progress for their individual state
                     programs.

                  3. Treasury should set milestones at which the state housing finance agencies in
                     the Hardest Hit Fund must review the progress of individual state programs
                     and make program adjustments from this review.

                  4. Treasury should publish on its website and in the Housing Scorecard on a
                     quarterly basis the total number of homeowners assisted, funds drawn down
                     by states, and dollars expended for assistance to homeowners, assistance
                     committed to homeowners, and cash on hand, aggregated by all state Hardest
                     Hit Fund programs.

                  5. Treasury should develop an action plan for the Hardest Hit Fund that includes
                     steps to increase the numbers of homeowners assisted and to gain industry
                     support for Treasury-approved HHF programs. Treasury should set interim
                     metrics for how many homeowners it intends to assist in a Treasury-defined
                     time period in each particular program (such as principal reduction, second-
                     lien reduction, or reinstatement). If Treasury cannot achieve the desired level
                     of homeowners assisted in any one program area in the defined time period,
                     Treasury should put the funds to better use toward programs that are reaching
                     homeowners.




                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                     46




                  Management Comments and SIGTARP’s
                  Response
                  Treasury provided an official written response to this report in a letter dated
                  March 28, 2012, which is reproduced in full in Appendix L. The letter states that
                  “we appreciate the findings of the report with respect to the three stated objectives
                  of the audit,” but Treasury did not address in detail the five recommendations in
                  the report.

                  Treasury disagreed that the time it took for states to build infrastructure should be
                  characterized as delay. Treasury said that state programs are gaining traction and
                  focused on the fact that there was growth last quarter in the number of
                  homeowners assisted and the amount of dollars going to assist those homeowners.

                  Treasury stated that it will address each of SIGTARP’s recommendations in detail
                  at a later date, but “generally believes that measures that would erode the
                  fundamental character of the HHF program – which empowers the states rather
                  than dictates a one-size fits all approach – would not be appropriate.” In response
                  to SIGTARP’s recommendation that Treasury set meaningful and measurable
                  goals for HHF, Treasury said that it believes establishing static numeric targets is
                  not well suited to HHF.

                  SIGTARP requested that within 30 days of the date of this report, Treasury
                  provide its rationale for nonconcurrence on each of the recommendations.




                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                            47




Appendix A – Objectives, Scope, and Methodology
SIGTARP performed this audit under authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act of
1978, as amended. We initiated this audit as part of our continuing oversight of TARP and to
respond to a request from House Committee on Oversight and Government Reform Chairman
Darrell Issa.37 The audit’s objectives were to:38

      assess the extent to which Treasury applied consistent and transparent criteria, including
       applicable provisions of the Emergency Economic Stabilization Act of 2008 (“EESA”), in
       selecting the states and programs to receive money from HHF;
      assess the extent to which Treasury determined that the programs to be funded by HHF are
       innovative and not duplicative of existing state and Federal programs; and
      identify the goals and metrics that Treasury adopted and reported to the public for the operation
       of HHF.

HHF funds foreclosure prevention programs run by state HFAs in states hardest hit by decreases in
home prices and high unemployment rates. The scope of this audit covered the four rounds of
Treasury funding of HHF and HHF program activity through December 31, 2011. Treasury
provided $7.6 billion for HHF in four increments: $1.5 billion made available on June 23, 2010;
$600 million made available on August 3, 2010; $2 billion made available on September 23, 2010;
and $3.5 billion made available on September 29, 2010. We conducted our audit work from
August 2010 through March 2012 in Washington, D.C., and New York, N.Y. (engagement code
022).

SIGTARP interviewed the 10 HFAs that participated in Round One or Round Two of HHF, and
conducted an email survey of the nine HFAs that joined HHF in Round Three. SIGTARP
judgmentally selected to interview the first 10 HFAs because they entered the program earlier and
had more experience to convey, and had a variety of program types. The HFAs that joined in Round
Three had fewer months of experience and at the time of the interviews offered unemployment
programs only. Treasury did not add any HFAs to HHF in Round Four. SIGTARP also surveyed all
19 HFAs about the goals for their programs (one HFA did not respond). In addition, SIGTARP
interviewed and sent a written survey on their participation in the HHF program to officials from the
nation’s four largest mortgage servicers.

To determine whether Treasury applied consistent and transparent criteria, including applicable
provisions of EESA used in selecting states and programs, SIGTARP interviewed officials from
Treasury’s Office of Financial Stability; officials from the 10 state housing finance agencies first
selected for the HHF program out of the 19 HFAs participating; and mortgage industry
stakeholders. We analyzed the criteria and data used by Treasury when making its state selection

37
     Chairman Issa was the ranking member of the committee when he made the request.
38
     A fourth question, whether Treasury has put sufficient mechanisms in place to prevent waste, fraud, and abuse of the
     Hardest Hit Fund, will be addressed in a future audit report.


                                                                                                                 April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                    48




decisions and reviewed available documentation, including Treasury’s HHF proposal guidelines,
written methodologies, emails, selection criteria such as unemployment rates and house price
declines, Review Committee meeting minutes, and decision memoranda regarding the HHF
program.

To determine whether Treasury’s HHF programs are innovative and not duplicative of existing state
and Federal programs, we synthesized Treasury guidance and testimonial evidence to determine
what definition or criteria for innovation Treasury established, and what processes Treasury
established and used to determine whether HFA programs for HHF are “innovative” and not
duplicative of existing state and Federal programs. We also synthesized testimonial evidence from
mortgage industry stakeholders and professionals on the extent to which HHF programs are
innovative. For this objective, SIGTARP interviewed officials from Treasury’s Office of Financial
Stability and officials from the 10 state housing finance agencies first selected for the HHF program,
out of the 19 HFAs participating. We also conducted email surveys with the nine additional HFAs
selected for the third round of HHF funding. We also interviewed officials from the four largest
servicers (Bank of America, CitiMortgage, JPMorgan Chase, and Wells Fargo) and the GSEs
(Freddie Mac and Fannie Mae) and their regulator and conservator, FHFA.

To address the goals and metrics of the HHF program, we interviewed Treasury officials including a
former Assistant Secretary for Financial Institutions, current and former OFS officials, and the
Director for Strategic Planning and Performance Management. We conducted a written survey of
the 19 state HFAs participating in HHF. We reviewed Treasury’s proposal guidelines, the proposals
state HFAs submitted to Treasury, the Participation Agreements between Treasury and state HFAs,
and the reports Treasury required state HFAs to publish quarterly about their HHF program activity.
We analyzed the estimates state HFAs made of the number of households their HHF programs
would serve. We reviewed statements made by the Government Accountability Office (“GAO”) and
COP about performance measurement of other TARP-funded housing programs, and reviewed GAO
reports on best practices for performance measurement. We reviewed other documents provided by
Treasury, including emails among Treasury officials related to HHF, as well as documents that
Treasury and HUD made available to the public.

SIGTARP conducted this performance audit in accordance with generally accepted government
auditing standards prescribed by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Limitations on Data
SIGTARP relied upon Treasury to identify and provide email communication and documents related
to the Hardest Hit Fund. It is possible that the documentation provided did not reflect a
comprehensive response to SIGTARP’s documentation requests, potentially limiting the review.




                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                      49




Use of Computer-Processed Data
SIGTARP relied upon computer-processed data from each of the 19 HFAs (quarterly performance
reports) and OFS (aggregate quarterly performance reports) to report the number of applications
approved, the number of homeowners assisted, and the amount spent on the program from the
quarter ending September 30, 2010, through the quarter ending December 31, 2011. We did not
validate the accuracy of these data because we did not have access to the underlying HFA or OFS
data. We were able to cross-reference data from the 19 HFA quarterly performance reports to the
OFS aggregate quarterly report to check the internal validity of the figures. Further, we relied upon
monthly statements from OFS on the amount the 19 HFAs drew down, by month and cumulatively,
for HHF program and administrative expenses and cash on hand. We did not validate the accuracy
of these data because we did not have access to the HFA data that appeared in the OFS reports.
Finally, we were able to assess the validity of the 19 HFA quarterly performance reports from
quarter to quarter by checking whether the program expenses and figures of homeowners assisted to
date plus the latest quarter’s data equaled the current cumulative figure.

Internal Controls
To address the reporting objectives in this audit, consideration of internal controls was not necessary.
SIGTARP plans to conduct an assessment of OFS’ internal controls for the HHF program in follow-
on work.

Prior Coverage
SIGTARP, GAO, and COP have provided information about HHF and updates on its status but have
not performed other audits related to HHF with the same or similar audit objectives.




                                                                                               April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                50




Appendix B – Acronyms and Abbreviations
Acronym or
Abbreviation                 Definition

BLS                          U.S. Department of Labor – Bureau of Labor Statistics
COP                          Congressional Oversight Panel
EESA                         Emergency Economic Stabilization Act of 2008
Fannie Mae                   Federal National Mortgage Association
FHA                          Federal Housing Administration
FHFA                         Federal Housing Finance Agency
Freddie Mac                  Federal Home Loan Mortgage Corporation
GAO                          Government Accountability Office
GSE                          Government-Sponsored Enterprise
HAMP                         Home Affordable Modification Program
HFA                          Housing Finance Agency
HHF                          Housing Finance Agency Innovation Fund for the Hardest Hit Housing
                             Markets (“Hardest Hit Fund”)
HPO                          Homeownership Preservation Office
HUD                          U.S. Department of Housing and Urban Development
MHA                          Making Home Affordable Program
OFS                          Office of Financial Stability
SIGTARP                      Office of the Special Inspector General for the Troubled Asset Relief
                             Program
TARP                         Troubled Asset Relief Program
VA                           U.S. Department of Veterans Affairs




                                                                                          April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                             51




Appendix C – Timeline of Key HHF Events
                                           July 12: State         September 1:
                                           HFA program            Round Three
 February 19:                                                                        October 29: GSE
                                           launches begin         proposals due
 Announcement of                                                                     HHF guidance for
 creation of HHF;                                                                    servicers published
                                                            August 11:
 $1.5 billion for Round
                             June 23: Round                 $2 billion                       December 31:            March 31:
 One
                               One funds                    announced for                    757 borrower            2,328 borrowers
                                allocated                   Round Three                      applications approved   assisted


     FEB 2010     MAR       APR     MAY    JUN        JUL   AUG     SEP     OCT      NOV     DEC      JAN 2011 FEB   MAR    APR        MAY    JUN



            March 29:                                        September               September 29:                                       June 30:
            $600 million                                             21:             $3.5 billion                                        7,389 borrowers
            announced for                                      Treasury              announced for                                       assisted
            Round Two                                             holds              Round Four
                                                                Servicer
             April 16:                                          Summit
            Round One
                                                                                  September 23:
             proposals            June 1: Round     August 3:
                                                                                  Round Three funds
                   due            Two proposals due Round Two
                                                                                  allocated
                                                    funds
                                                    allocated


         Source: SIGTARP analysis of Treasury data.




                                                                                                                                  April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                                52




Appendix D – HHF State Selection and Funding Allocation
Methodology

  A LOOK AT THE FUNDING ALLOCATION METHODOLOGY
                     Funding
   HHF               ($ billions)
   Funding           Total Funding –            State Selection                 States Funded                         Funding Allocation
   Round             $7.6 billion               Criteria Statistic              and Criteria Statistic                Method to States
                                                                             Nevada            -49.9%            Weighting based on:
                                          Greater than 20%
   Round 1                                                                   California        -38.9%           House price decline
                                          house price decline
   February             1.5
                                          (from peak to 4Q                   Florida           -37.4%           State’s unemployment rate
   2010                                   2009)
                                                a                            Michigan          -24.1%           State’s number of delinquent
                                                                             Arizona           -36.8%            loans
                                          Not funded in
                                          Round 1 and                        Rhode Island        60%                        b
                                                                                                                 Allocated based on state’s
   Round 2                                highest percentage                 South Carolina      44%
                                          of state’s population                                                  population residing in
   March                0.6                                                  Oregon              34%             Distressed counties, where
                                          residing in counties
   2010                                                                      North Carolina      25%             Distressed = over 12%
                                          exceeding 12%
                                          unemployment for                   Ohio                22%             unemployment for 2009
                                          2009
                                                                             District of Columbia,
                                          Unemployment rate                  Tennessee, New Jersey,
   Round 3                                at or above national               Illinois, Kentucky,                            c
                                                                                                                 Allocated based on state’s
   August               2.0               average for prior 12               Alabama, Georgia,
                                                                                                                 population
   2010                                   months (July 2009-                 Mississippi, Indiana, and
                                          June 2010)                         all Round 1 and Round 2
                                                                             states except Arizona
   Round 4
                                          All states funded in               All states funded in                Allocated based on state’s
   September            3.5
                                          Rounds 1, 2, or 3                  Rounds 1, 2, or 3                   population
   2010
 a Index utilized was the FHFA seasonally adjusted purchase-only house price index.
 b Allocation formula: (State’s population in high-unemployment counties / sum of states’ populations in high-unemployment counties in
     states funded in that round).
 c Allocation formula: (State’s population / sum of populations in states funded in that round).
 Source: Treasury.




                                                                                                                                         April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                       53




Appendix E – HHF Funding Allocations and Amounts
Obligated by State, Total Finalized September 29, 2010

FUNDING ALLOCATIONS AND AMOUNTS OBLIGATED
State                  Round One            Round Two             Round Three             Round Four             Amount Obligated

Alabama                      –                   –                  $60,672,471           $101,848,874                $162,521,345

Arizona               $125,100,000               –                       –                $142,666,006                $267,766,006

California            $699,600,000               –                $476,257,070            $799,477,026              $1,975,334,096

Florida               $418,000,000               –                $238,864,755            $400,974,381              $1,057,839,136

Georgia                      –                   –                $126,650,987            $212,604,832                $339,255,819

Illinois                     –                   –                $166,352,726            $279,250,831                $445,603,557

Indiana                      –                   –                  $82,762,859           $138,931,280                $221,694,139

Kentucky                     –                   –                  $55,588,050             $93,313,825               $148,901,875

Michigan              $154,500,000               –                $128,461,559            $215,644,179                $498,605,738

Mississippi                  –                   –                 $38,036,950              $63,851,373               $101,888,323

Nevada                $102,800,000               –                 $34,056,581              $57,169,659               $194,026,240

New Jersey                   –                   –                $112,200,637            $188,347,507                $300,548,144

North Carolina               –              $159,000,000          $120,874,221            $202,907,565                $482,781,786

Ohio                         –             $172,000,000           $148,728,864            $249,666,235                $570,395,099

Oregon                       –               $88,000,000           $49,294,215             $82,748,571                $220,042,786

Rhode Island                 –               $43,000,000            $13,570,770            $22,780,803                 $79,351,573

South Carolina               –              $138,000,000            $58,772,347            $98,659,200                $295,431,547

Tennessee                    –                   –                  $81,128,260           $136,187,333                $217,315,593

Washington, D.C.             –                   –                   $7,726,678             $12,970,520                $20,697,198

Total              $1,500,000,000          $600,000,000         $2,000,000,000           $3,500,000,000             $7,600,000,000
Note: Treasury announced Round One funding on February 19, 2010, Round Two funding on March 29, 2010, Round Three funding on
August 11, 2010, and Round Four funding on September 29, 2010.
Source: Treasury Transactions Report for period ending 9/30/2010.




                                                                                                                                 April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                54




Appendix F – HHF Programmatic Expenses and
Homeowners Assisted, by State, as of December 31, 2011

         PROGRAMMATIC EXPENSES, HOMEOWNERS ASSISTED
                                         Programmatic                       Homeowners
         State                               Expenses                          Assisted
         Alabama                             $7,506,166                           1,299
         Arizona                             $1,011,154                             325
         California                         $38,630,554                           4,357
         Florida                            $15,156,356                           3,302
         Georgia                             $1,795,447                             524
         Illinois                            $4,804,262                             539
         Indiana                             $1,510,656                             226
         Kentucky                            $7,003,585                           1,045
         Michigan                           $10,485,488                           2,897
         Mississippi                         $1,332,799                             193
         Nevada                              $3,404,243                             682
         New Jersey                             $218,032                             54
         North Carolina                     $31,718,521                           3,685
         Ohio                               $34,169,125                           3,924
         Oregon                             $36,140,389                           4,426
         Rhode Island                        $6,429,243                           1,031
         South Carolina                      $9,146,929                           1,207
         Tennessee                           $5,259,731                             752
         Washington, D.C.                    $1,704,691                             172
         Total                             $217,427,372                          30,640
         Note: Numbers affected by rounding.
         Source: Quarterly performance data reports, fourth quarter 2011.




                                                                                          April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                             55




Appendix G – HHF Funding Allocations and Amount
Drawdown by HFAs, by State, as of February 2012

                  AMOUNTS OBLIGATED AND DRAWN
                                                            Amount          Amount
                  State                                    Obligated         Drawn
                  Alabama                              $162,521,345      $16,000,000
                  Arizona                              $267,766,006      $21,255,000
                  California                         $1,975,334,096     $217,490,000
                  Florida                            $1,057,839,136      $63,350,000
                  Georgia                              $339,255,819      $38,200,000
                  Illinois                             $445,603,557      $46,500,000
                  Indiana                              $221,694,139      $22,000,000
                  Kentucky                             $148,901,875      $24,000,000
                  Michigan                             $498,605,738      $30,166,175
                  Mississippi                          $101,888,323       $5,094,416
                  Nevada                               $194,026,240      $12,302,000
                  New Jersey                           $300,548,144       $7,513,704
                  North Carolina                       $482,781,786      $78,000,000
                  Ohio                                 $570,395,099      $96,100,000
                  Oregon                               $220,042,786      $83,501,070
                  Rhode Island                           $79,351,573     $13,000,000
                  South Carolina                       $295,431,547      $30,000,000
                  Tennessee                            $217,315,593      $20,315,593
                  Washington, D.C.                       $20,697,198      $3,834,860
                  Total                              $7,600,000,000     $828,622,818
                  Source: State HFA Invoice, Treasury, February 2012.




                                                                                       April 12, 2012
F
FACTORS AFFE
           ECTING IMPLEM
                       MENTATION OF THE HARDEST
                                              T HIT FUND PRO
                                                           OGRAM                                                                                56




A
Append
     dix H – HFAs’
             H      Timeline
                    T          of Pilott and Sttatewide e Progrram
L
Launchees, and Date First
                    F     Larrge Servvicer Pa articipattes, as o
                                                               of
A
August 1, 2011




S
Sources: Surveys of o HHF states on pilot
                                      p   and statewide
                                                      e HHF program lauunch dates, GSE gguidance on HHF from October 29, 2010, and surveyss of four
la
 argest servicers (CitiMortgage, Bank of
                                      o America, Wells Fargo,
                                                       F      and JPMorg
                                                                       gan Chase) on whe
                                                                                       en they signed up w
                                                                                                         with individual HHF programs.




                                                                                                                                       Aprril 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                      57




Appendix I – State Selection Rankings for Rounds One, Two,
and Three
Round One
 HOUSING PRICE DECLINE FROM PEAK, MOST FREQUENTLY IN 2007,
 TO 4TH QUARTER 2009
                                    Home Price                                                     Home Price
 Rank                   State          Decline                 Rank                      State        Decline
                                                                                     District of
 1                   Nevada            -49.9%                   27                                      -5.5%
                                                                                     Columbia
 2                California           -38.9%                   28                    Missouri          -5.0%

 3                   Florida           -37.4%                   29                      Alaska          -4.9%

 4                   Arizona           -36.8%                   30                 Tennessee            -4.7%

 5                 Michigan            -24.1%                   31                  Wisconsin           -4.5%

 6                 Maryland            -19.0%                   32                   New York           -4.3%

 7             Rhode Island            -17.2%                   33               Pennsylvania           -4.1%

 8                      Utah           -16.2%                   34                       Maine          -3.9%

 9                   Oregon            -15.5%                   35                    Vermont           -3.9%

 10                   Hawaii           -14.5%                   36             North Carolina           -3.8%

 11                    Idaho           -13.6%                   37                     Indiana          -3.2%

 12             Washington             -12.9%                   38               West Virginia          -3.1%

 13         New Hampshire              -12.7%                   39                   Arkansas           -2.9%

 14                    Illinois        -12.3%                   40             South Carolina           -2.3%

 15              New Jersey            -12.3%                   41                   Colorado           -1.8%

 16               Minnesota            -12.1%                   42                   Louisiana          -1.5%

 17          Massachusetts             -11.8%                   43                   Nebraska           -1.4%

 18                Delaware            -11.5%                   44                    Alabama           -1.2%

 19                  Georgia           -11.4%                   45                        Iowa          -0.9%

 20                  Virginia           -9.7%                   46               North Dakota           -0.7%

 21             Connecticut             -9.6%                   47                   Kentucky           -0.1%

 22                     Ohio            -7.6%                   48                       Texas            0%

 23             New Mexico              -7.2%                   49                     Kansas             0%

 24               Mississippi           -6.4%                   50                  Oklahoma              0%

 25                Wyoming              -6.3%                   51              South Dakota              0%

 26                 Montana             -6.0%
 Source: Treasury. The original array provided by Treasury transposed Michigan and Arizona.




                                                                                                                April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                           58




 ROUND ONE ALLOCATIONS
               Housing Price Decline        Unemployment
                                                                                                          Weighted
                            Ratio
               Housing                   December   Ratio Relative   Sum of     Number of    Weighted      Share of
                           Relative
                 Price                     2009       to Highest      Ratios    Delinquent   Number of    Delinquent   Allocation
                             to
              Decline from             Unemployment Unemployment     (State’s    Loans in    Delinquent    Loans in    ($millions)
                           Largest
                 Peak                      Rate          Rate        Weight)     Q4 2009       Loans        These
                           Decline
                                                                                                            States
 Nevada          -49.9%      1.00         13.0%          0.89          1.9        62,622      118,382        6.9%       $102.8
 California      -38.9%      0.78         12.4%          0.85          1.6       494,640      805,978       46.6%         699.6
 Florida         -37.4%      0.75         11.8%          0.81          1.6       309,022      481,558       27.9%         418.0
 Arizona         -36.8%      0.74          9.1%          0.62          1.4       105,853      144,073        8.3%         125.1
 Michigan        -24.1%      0.48         14.6%          1.00          1.5       120,030      178,000       10.3%         154.5
 Total                                                                                                                 $1,500.0
 Source: Treasury.




                                                                                                                    April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                              59




Round Two

 PERCENTAGE OF STATE POPULATION LIVING IN HIGH-UNEMPLOYMENT COUNTIES
                                          % of State Population                                 % of State Population
                                        in High-Unemployment                                  in High-Unemployment
 Ranking                      State            Counties in 2009   Ranking           State            Counties in 2009
 1                         Michigan               79%               27       North Dakota                   2%

 2                    Rhode Island                60%               28        New Jersey                    2%

 3               South Carolina                   44%               29        New Mexico                    1%

 4                          Oregon                34%               30           Missouri                   1%

 5                        California              26%               31             Maine                    1%

 6                   North Carolina               25%               32          Louisiana                   1%

 7                            Ohio                22%               33         Minnesota                    1%

 8                       Tennessee                21%               34             Texas                    1%

 9                        Kentucky                19%               35       Pennsylvania                   0%

 10                      Mississippi              18%               36           Colorado                   0%

 11                        Alabama                16%               37        Connecticut                   0%

 12                         Indiana               16%               38          Delaware                    0%

 13                          Florida              12%               39             Hawaii                   0%

 14                     Washington                12%               40               Iowa                   0%

 15                         Georgia               10%               41            Kansas                    0%

 16                         Arizona                7%               42      Massachusetts                   0%

 17                          Alaska                7%               43          Maryland                    0%

 18                          Illinois              6%               44          Nebraska                    0%
 19                    West Virginia               4%               45      New Hampshire                   0%
 20                         Nevada                 4%               46          New York                    0%

 21                           Idaho                3%               47          Oklahoma                    0%

 22                      Wisconsin                 3%               48               Utah                   0%

 23                        Montana                 3%               49           Vermont                    0%

 24                   South Dakota                 3%               50          Wyoming                     0%
                                                                                District of
                            Virginia               2%               51                                      0%
 25                                                                             Columbia

 26                       Arkansas                 2%
 Source: Treasury.




                                                                                                                        April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                60




ROUND TWO ALLOCATIONS

                                    State Totals                     Unemployment            Allocation of TARP Funds

                                                                                        % of Total
                                                                       % of State
                                                                                       Population in         Allocation
                        State            Population in High-          Population in
                                                                                          High-                 Cap
State                Population in        Unemployment*                  High-
                                                                                      Unemployment*
                        2009                 Counties                Unemployment
                                                                                       Counties for
                                                                        Counties
                                                                                       Top 5 States
Rhode Island            1,053,209                627,690                    60%             7%              $43,000,000

South Carolina          4,561,242              2,022,492                    44%            23%             $138,000,000

Oregon                  3,825,657              1,281,675                    34%            15%              $88,000,000

North Carolina          9,380,884              2,332,246                    25%            27%             $159,000,000

Ohio                   11,542,645              2,514,678                    22%            29%             $172,000,000

Total                                                                                                      $600,000,000
Source: Treasury, March 29, 2010, Hardest Hit Fund Frequently Asked Questions.
* Treasury defined “high unemployment” as exceeding 12%.




                                                                                                                          April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                               61




Round Three
 AVERAGE UNEMPLOYMENT RATE
                                          Average                                                        Average
                                    Unemployment                                                   Unemployment
                                             Rate,                                                          Rate,
                                         July 2009                                                      July 2009
                                          through                                                        through
 Rank                   State           June 2010                 Rank                  State          June 2010
                               a
 1                Michigan                 14.1%                   27               Delaware                      8.7%
                              a
 2                  Nevada                 13.2%                   28              New York                       8.7%
                               a
 3               California                12.3%                   29              Wisconsin                      8.6%
                             b
 4           Rhode Island                  12.3%                   30                  Alaska                     8.3%
                             b
 5         South Carolina                  12.0%                   31            New Mexico                       8.2%
                               a
 6                   Florida               11.6%                   32                  Texas                      8.2%
                  District of
 7                                         11.2%                   33                  Maine                      8.1%
                  Columbia
 8                    Illinois             10.9%                   34               Colorado                      7.7%
                             b
 9         North Carolina                  10.8%                   35               Arkansas                      7.6%

 10                 Alabama                10.8%                   36              Minnesota                      7.5%
                             b
 11                 Oregon                 10.8%                   37               Maryland                      7.4%
                             b
 12                    Ohio                10.8%                   38               Wyoming                       7.2%

 13              Mississippi               10.7%                   39              Louisiana                      7.2%

 14              Tennessee                 10.7%                   40                 Virginia                    7.0%

 15                Kentucky                10.6%                   41                    Utah                     6.9%

 16                  Georgia               10.2%                   42                  Hawaii                     6.8%

 17                  Indiana               10.0%                   43               Montana                       6.8%

 18             New Jersey                 9.8%                    44              Oklahoma                       6.8%
                                                                                      New
 19                  Missouri              9.5%                    45                                             6.7%
                                                                                  Hampshire
                              a
 20                  Arizona               9.4%                    46                 Kansas                      6.7%

 21              Washington                9.2%                    47                Vermont                      6.6%

 22          Massachusetts                 9.2%                    48                    Iowa                     6.6%

 23                     Idaho              9.0%                    49              Nebraska                       4.8%

 24            West Virginia               8.9%                    50          South Dakota                       4.7%

 25              Connecticut               8.8%                    51          North Dakota                       4.1%

 26            Pennsylvania                8.8%
 Note: States marked with a superscript “a” received funding in Round One. States marked with a superscript “b”
 received funding in Round Two.
 Source: Treasury.




                                                                                                                         April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                    62




 ROUND THREE ALLOCATIONS
                                        Average
                                  Unemployment
                                           Rate,                  Share of
 Rank                   State                      Population                    Allocation
                                       July 2009                Population
                                        through
                                      June 2010
 1                  Michigan            14.1       9,969,727      6%          $128,461,559

 2                   Nevada             13.2       2,643,085      2%           $34,056,581

 3                 California           12.3       36,961,664     24%         $476,257,070

 4             Rhode Island             12.3       1,053,209      1%           $13,570,770

 5           South Carolina             12.0       4,561,242      3%           $58,772,347

 6                    Florida           11.6       18,537,969     12%         $238,864,755
                   District of
 7                                      11.2         599,657      0%            $7,726,678
                   Columbia
 8                     Illinois         10.9       12,910,409     8%          $166,352,726

 9            North Carolina            10.8        9,380,884     6%          $120,874,221

 10                 Alabama             10.8       4,708,708      3%           $60,672,471

 11                   Oregon            10.8       3,825,657      2%           $49,294,215

 12                      Ohio           10.8       11,542,645     7%          $148,728,864

 13               Mississippi           10.7       2,951,996      2%           $38,036,950

 14              Tennessee              10.7       6,296,254      4%           $81,128,260

 15                 Kentucky            10.6       4,314,113      3%           $55,588,050

 16                  Georgia            10.2       9,829,211      6%          $126,650,987

 17                   Indiana           10.0       6,423,113      4%           $82,762,859

 18              New Jersey              9.8       8,707,739      6%          $112,200,638

 Total                                                           100%        $2,000,000,000
 Note: Totals affected by rounding.
 Source: Treasury.




                                                                                              April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                     63




Appendix J – HFA Quarterly Performance Report
Template/Data Dictionary
     DATA DICTIONARY (FOR QUARTERLY PERFORMANCE REPORT)* MAY 2011 VERSION
                                     HFA Performance Data Reporting – Borrower Characteristics
                             The Following Data Points Are To Be Reported in Aggregate for All Programs:
     Unique Borrower Count
                                                   Total number of unique borrowers having received some form of assistance under
     Number of Unique Borrowers Receiving
                                                   any one of the HFA’s programs. The number of borrowers represented in the other
     Assistance
                                                   “Borrower Characteristics” fields should foot to this number.
     Number of Unique Borrowers Denied             Total number of unique borrowers not receiving assistance under any of the
     Assistance                                    programs and not withdrawn
                                                   Total number of unique borrowers who do not receive assistance under any
     Number of Unique Borrowers Withdrawn
                                                   program because of voluntary withdrawal after approval or failure to complete
     from Program
                                                   application despite attempts by the HFA
                                                   Total number of unique borrowers who have not been decisioned for any program
     Number of Unique Borrowers in Process
                                                   and are pending review.
                                                   Total number of unique borrowers. This should be the total of the four above
     Total Number of Unique Applicants
                                                   fields.
     Borrower Income
                                                   At the time of assistance, borrower’s annual income ($) rounded to the nearest
     All Categories
                                                   thousand.
     Borrower Income as Percent of Area Median Income (AMI)
                                                   At the time of assistance, borrower’s annual income as a percentage of area
     All Categories
                                                   median income.
     Geographic Breakdown (by County)
     All Categories                                Number of aggregate borrowers assisted in each county listed.
     Home Mortgage Disclosure Act (HMDA)
                                                                 Borrower
     Race
     All Categories                                All totals for the aggregate number of borrowers assisted.
     Ethnicity
     All Categories                                All totals for the aggregate number of borrowers assisted.
     Sex
     All Categories                                All totals for the aggregate number of borrowers assisted.
                                                               Co-Borrower
     Race
     All Categories                                All totals for the aggregate number of borrowers assisted.
     Ethnicity
     All Categories                                All totals for the aggregate number of borrowers assisted.
     Sex
     All Categories                                All totals for the aggregate number of borrowers assisted.
     Hardship
     All Categories                                All totals for the aggregate number of borrowers assisted.
     Current Loan to Value Ratio (LTV)
                                                   Market loan to value ratio calculated using the unpaid principal balance at the time
     All Categories
                                                   of assistance divided by the most current valuation at the time of assistance.
     Current Combined Loan to Value Ratio (CLTV)




                                                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                     64




                                                  Market combined loan to value ratio calculated using the unpaid principal balance
     All Categories                               for all first and junior liens at the time of assistance divided by the most current
                                                  valuation at the time of assistance.
     Delinquency Status (%)
     All Categories                               Delinquency status at the time of assistance.
     Household Size
     All Categories                               Household size at the time of assistance.
                                         HFA Performance Data Reporting – Program Performance
     Program Intake/Evaluation
     Approved
     Number of Applications Approved              The total number of applications approved for assistance for the specific program
                                                  Total number of applications approved for assistance for the specific program
     % of Total Number of Applications
                                                  divided by the total number of applications received for the specific program.
     Denied
                                                  The total number of applications denied for assistance for the specific program. A
     Number of Applications Denied                borrower that has provided the necessary information for consideration for program
                                                  assistance, but is not approved for this assistance.
                                                  Total number of applications denied for assistance for the specific program divided
     % of Total Number of Applications
                                                  by the total number of applications received for the specific program.
     Withdrawn
                                                  The total number of applications withdrawn from the specific program. A withdrawal
                                                  is defined as a borrower who was approved but never received funding, or a
     Number of Applications Withdrawn
                                                  borrower who drops out of the process despite attempts by the HFA to complete
                                                  application.
                                                  Total number of applications for assistance withdrawn for the specific program
     % of Total Number of Applications
                                                  divided by the total number of applications received for the specific program.
     In Process
                                                  The total number of applications for the specific program that have not been
     Number of Applications In Process
                                                  decisioned and are pending review
                                                  Total number of applications for the specific program that have not been decisioned
     % of Total Number of Applications            and are pending review divided by the total number of applications received for the
                                                  specific program.
     Total
                                                  Total number of applications received for the specific program (approved, denied,
     Total Number of Applications Received
                                                  withdrawn and in process).
     Number of Borrowers Participating in         Number of households participating in other HFA sponsored HHF programs or
     Other HFA HHF Programs or Program            other HHF program components.
     Components
     Program Characteristics
     General Characteristics
                                                  Median first lien housing payment paid by homeowner for all approved applicants
     Median 1st Lien Housing Payment Before
                                                  prior to receiving assistance. In other words, the median contractual borrower
     Assistance
                                                  payment on their first lien before receiving assistance.
                                                  Median first lien housing payment paid by homeowner for after receiving
     Median 1st Lien Housing Payment After
                                                  assistance. In other words, the median contractual first lien payment less HFA
     Assistance
                                                  contribution.
                                                  Median second lien housing payment paid by homeowner for all approved
     Median 2nd Lien Housing Payment
                                                  applicants prior to receiving assistance. In other words, the median contractual
     Before Assistance
                                                  borrower payment on their second lien before receiving assistance.
                                                  Median second lien housing payment paid by homeowner for after receiving
     Median 2nd Lien Housing Payment After
                                                  assistance. In other words, the median contractual second lien payment less HFA
     Assistance
                                                  contribution.




                                                                                                                            April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                    65




     Median 1st Lien UPB Before Program        Median principal balance of all applicants approved for assistance prior to receiving
     Entry                                     assistance.
                                               Median principal balance of all applicants approved for assistance after receiving
     Median 1st Lien UPB After Program Entry
                                               assistance.
     Median 2nd Lien UPB Before Program        Median second lien principal balance of all applicants approved for assistance prior
     Entry                                     to receiving assistance.
     Median 2nd Lien UPB After Program         Median second lien principal balance of all applicants approved for assistance after
     Entry                                     receiving assistance.
                                               Median amount of principal forgiveness granted ($). This should only include
     Median Principal Forgiveness              extinguished fees in the event that those fees have been capitalized. *Includes
                                               second lien extinguishment.
                                               Median length of time a borrower receives on-going assistance (e.g.,
     Median Length of Time Borrower
                                               unemployment programs). Please report in months (round up to closest integer).
     Receives Assistance
                                               This only need be reported in the cumulative column.
     Median Assistance Amount                  Median amount of assistance ($).
     Assistance Characteristics
                                               Total amount of aggregate assistance provided by the HFA (does not include lender
     Assistance Provided
                                               matching assistance).
                                               Total amount of aggregate assistance provided by the lenders / servicers (does not
     Total Lender/Servicer Assistance Amount   include HFA assistance). Lender waiving fees and / or forbearance does not count
                                               towards lender / servicer assistance.
     Borrowers Receiving Lender/Servicer       Percent of borrowers receiving lender/servicer match out of the total number of
     Match (%)                                 assisted applicants.
     Median Lender/Servicer Assistance per     Median lender/servicer matching amount (for borrowers receiving matching)
     Borrower
     Other Characteristics
                                               Median length of time from initial contact with borrower (general eligibility
     Median Length of Time from Initial
                                               determination) to granted assistance. Please report in days (round up to closest
     Request to Assistance Granted
                                               integer).
     Current
     Number                                    Number of households current at the time assistance is received.
     %                                         Percent of current households divided by the total number of approved applicants.
     Delinquent (30+)
                                               Number of households 30+ days delinquent but less than 60 days delinquent at the
     Number
                                               time assistance is received.
                                               Percent of 30+ days delinquent but less than 60 days delinquent households
     %
                                               divided by the total number of approved applicants.
     Delinquent (60+)
                                               Number of households 60+ days delinquent but less than 90 days delinquent at the
     Number
                                               time assistance is received.
                                               Percent of 60+ days delinquent but less than 90 Days delinquent households
     %
                                               divided by the total number of approved applicants.
     Delinquent (90+)
     Number                                    Number of households 90+ Days delinquent at the time assistance is received.
                                               Percent of 90+ days delinquent households divided by the total number of approved
     %
                                               applicants.
     Program Outcomes
     Borrowers No Longer in the HHF            Number of households who are no longer in the HFA program and reach an
     Program (Program Completion/Transition    alternative outcome or program completion/transition.
     or Alternative Outcome)
     Alternative Outcomes
     Foreclosure Sale




                                                                                                                        April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                   66




                                               Number of households transitioned out of the HHF program into a foreclosure sale
     Number
                                               as an alternative outcome of the program.
     %                                         Percent of transitioned households that resulted in foreclosure.
     Cancelled
                                               Number of borrowers who were approved and funded, then were disqualified or
     Number                                    voluntarily withdrew from the program without
                                               re-employment or other intended transition.
     %                                         Percent of transitioned households that were cancelled from the program.
     Deed in Lieu
                                               Number of households transitioned out of the HHF program into a deed in lieu as
     Number
                                               an alternative outcome of the program.
     %                                         Percent of transitioned households that resulted in deed in lieu.
     Short Sale
                                               Number of households transitioned out of the HHF program into a short sale as an
     Number
                                               alternative outcome of the program.
     %                                         Percent of transitioned households that resulted in short sale.
     Program Completion/Transition
     Loan Modification Program
                                               Number of households that transitioned into a loan modification program (such as
     Number
                                               the Making Home Affordable Program)
     %                                         Percent of transitioned households entering a loan modification program.
     Re-employed/Regain Appropriate Employment Level
                                               Number of households transitioned out of the program due to regaining
     Number
                                               employment and/or appropriate levels of employment.
                                               Percent of transitioned households that resulted in re-employment or regained
     %
                                               employment levels.
     Reinstatement/Current/Payoff
                                               Number of households transitioned out of the program due to reinstating/bringing
     Number
                                               loan current or paying off their mortgage loan.
     %                                         Percent of transitioned households that resulted in reinstatement/current or payoff.
     Short Sale
                                               Number of households transitioned out of the HHF program into a short sale as the
     Number
                                               desired outcome of the program.
     %                                         Percent of transitioned households that resulted in short sale.
     Deed in Lieu
                                               Number of households transitioned out of the HHF program into a deed in lieu as
     Number
                                               the desired outcome of the program.
     %                                         Percent of transitioned households that resulted in a deed in lieu
     Other – Borrower Still Owns Home
                                            ouseholds transitioned out of the HHF program not falling into one of the transition
     Number
                                            bove, but still maintaining ownership of the home.
     %                                         Percent of transitioned households in this category.
                                 1
     Homeownership Retention
                                               Number of households assisted by the program in which the borrower retains
     Six Months
                                               ownership 6 months post initial assistance.
                                               Percent of households assisted by the program in which the borrower retains
     %                                         ownership 6 months post initial assistance divided by the total number of
                                               households assisted by the program 6 months prior to reporting period.
                                               Number of households assisted by the program in which borrower retains
     Twelve Months
                                               ownership 12 months post initial assistance.




                                                                                                                        April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                              67




                                                             Percent of households assisted by the program in which the borrower retains
     %                                                       ownership 12 months post initial assistance divided by the total number of
                                                             households assisted by the program 12 months prior to reporting period.
                                                             Number of homes assisted by the program that are unable to be verified by any
     Unreachable
                                                             means.
                                                             Percent of homes assisted by the Program that are unable to be verified by any
     %
                                                             means.
     Note: 1 Borrower still owns home.
     * Information should reflect quarterly activity (e.g., borrowers assisted during the reporting quarter)
     Source: Treasury.




                                                                                                                                    April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                             68




Appendix K – HHF Program Goals by State and Program,
as of December 31, 2011
         ALABAMA
         Hardest Hit for
                                   Provide mortgage payment assistance to unemployed or underemployed
         Alabama’s Unemployed
                                   Alabama homeowners with a chance of sustaining homeownership.
         Homeowners
         ARIZONA
                                   The central goal of the Permanent Modification Component is to help homeowners
                                   avoid foreclosure by permanently modifying a borrower’s primary mortgage to achieve
                                   a monthly payment that does not exceed 31-32% of the borrower’s monthly income,
                                   depending on the agreement with the servicer. Loan modifications may include
         Permanent Modifications
                                   principal reduction (the amount of any principal reduction provided by HHF Program
         Component
                                   funds must be matched by a borrower’s lender/servicer), interest rate reduction,
                                   and/or term extension. The Permanent Modification Component aspires to achieve a
                                   ninety percent (90%) success rate in modifying loans with the borrowers’
                                   lenders/servicers.
                                   The goals of the Second Mortgage Assistance Component is to help homeowners
         Second Mortgage           avoid foreclosure by eliminating a second mortgage if necessary to modify the terms
         Assistance Component      of the primary loan, and to reduce the likelihood that a borrower will re-default under
                                   its primary loan as a result of the burden of a second mortgage.
                                   This program will provide assistance for a set period of time and/or maximum dollar
                                   amount so a qualified borrower can search for adequate work or obtain job training
                                   without fear of losing their home. The purpose of the program is to assist borrowers
         Unemployment/             until they can obtain sufficient income to resume scheduled mortgage payments, or
         Underemployment           qualify for a modified mortgage payment.
         Mortgage Assistance       • Sustain the unemployed/underemployed borrower’s monthly mortgage payment until
         Component                 they can or the maximum assistance has been provided
                                   • Maintain the borrower’s contribution towards their monthly mortgage payment at
                                   31% of their current gross monthly income for the duration of the assistance
                                   excluding unemployment benefits.
                                   Short sale assistance was designed to help stabilize communities by providing
         Short Sale Assistance     assistance to consumers in unrecoverable situations to transition from homeownership
         Component                 to renting as well as enhance the marketability of short sale properties and accelerate
                                   the stabilization of property value.
         CALIFORNIA
                                   UMA’s goal is to help homeowners remain in their homes and prevent avoidable
                                   foreclosures despite loss of income due to unemployment.
                                   The UMA program will minimize past due payments, and provide a homeowner with
                                   additional time to find alternate employment and replace income needed to make their
         Unemployment
                                   mortgage payment.
         Mortgage Assistance
                                   UMA was designed to assist homeowners who are currently eligible to receive
         Program
                                   unemployment benefits.
                                   UMA was designed to complement other loss mitigation programs, including
                                   increasing a homeowner’s eligibility for an extended written forbearance plan and/or
                                   loan modification.
                                   The MRAP program will prevent avoidable foreclosures by helping homeowners
                                   reinstate their past due first mortgage loans.
         Mortgage Reinstatement
                                   MRAP will also mitigate the need for large reinstatement dollars to be capitalized with
         Assistance Program
                                   remaining loan balance, and thus, broaden the population of homeowners who
                                   otherwise may not qualify for modification.
                                   The PRP program will, in cooperation with participating lenders, leverage the HHF
                                   dollars by reducing the principal balances of underwater mortgages and provide an
                                   incentive for qualifying homeowners to remain in their homes during this period of
         Principal Reduction
                                   steep declines in value.
         Program
                                   A reduction in principal through PRP can achieve desired income ratios and
                                   affordability for a homeowner on the existing mortgage loan or can be used in
                                   conjunction with a loan modification.
                                   CalHFA MAC envisions that these monies would be used to complement other federal
         The Transition            or lender programs designed specifically to stabilize communities by providing
         Assistance Program        assistance to homeowners who have suffered a financial hardship and as a result are
                                   no longer financially able to afford their mortgage payments.



                                                                                                                 April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                   69



                                        The goal of this program is to reduce foreclosures by reducing principal balances, on
                                        qualified amortizing subordinate debt, to those market levels needed to prevent
         C2MPRP: Community
           nd                           avoidable foreclosures and promote sustainable homeownership. The C2M PRP thus
         2 Mortgage Principal
                                        provides an incentive for qualifying homeowners to remain in their homes during this
         Reduction Program
                                        period of steep declines in value, in situations when existing Making Home Affordable
                                        and CalHFA programs are unable to do so.
                                        Leverage existing neighborhood stabilization efforts in the City by targeting at-risk
                                        borrowers in those neighborhoods most impacted by foreclosures and providing
         Los Angeles Housing Department
                                        sustainable loan modifications with affordable payments that include permanent
         (“LAHD”) Principal Reduction
                                        principal reduction consistent with the guidelines outlined herein. The Program goals
         Program
                                        include maximizing leverage (City grant/Amount of Principal Write down) at 21%, with
                                        a Loan to Value/Combined Loan to Value (LTV, CLTV) ranging from 105% to 125%.
                                        The Program will, in cooperation with participating lenders, provide an option for
         NeighborWorks® Sacramento
                                        borrowers to remain in their homes after efforts to modify loans have been exhausted.
         Short Sale Gateway
                                        The Program goals are to prevent dislocation of households, prevent the creation of
         Program
                                        vacant units and return borrowers to successful homeownership.
         FLORIDA
         Unemployment Mortgage             • Preserving homeownership.
         Assistance Program                • Protecting home values.
         Mortgage Loan                     • Preserving homeownership.
         Reinstatement Program             • Protecting home values.
         GEORGIA
                                           The goal is to provide assistance over the next 5 years to 18,300 homeowners to
                                           prevent foreclosures. Mortgage Payment Assistance (MPA) will be provided as
                                           follows:
                                           Short-Term Assistance
                                           Monthly mortgage payments to assist unemployed or substantially under-employed
         Mortgage Payment
                                           homeowners while they look for a new job.
         Assistance (MPA)
                                           Reinstatement Assistance
                                           One-time payment for homeowners who have found a new job and can make ongoing
                                           payments, but need help to bring their mortgage current and avoid foreclosure due to
                                           arrearages accumulated during a period of unemployment or substantial
                                           underemployment.
         ILLINOIS
         Hardest Hit Fund                  The goal of the Program is to assist homeowners who have experienced an income
         Homeowner Emergency               reduction due to unemployment or underemployment with Monthly Mortgage Payment
         Loan Program (HHF                 Assistance and Reinstatement Assistance that will allow them to pursue sustainable
         HELP)                             income and homeownership without the immediate threat of default or foreclosure.
                                           The MRF Program aims to keep families in their homes or provide families with
         Mortgage Resolution
                                           support for an orderly property disposition and transition to new housing, which will
         Fund Program (MRF)
                                           help to stabilize neighborhoods and housing markets.
         INDIANA
                                           The goal of the UBP is to cover a portion of PITI for eligible unemployed homeowners,
         Hardest Hit Fund                  allowing them to:
         Unemployment Bridge               1) Secure re-employment in their occupation; or
         Program                           2) Access training made available through the Indiana Department of Workforce
                                           Development that will help them secure employment in a new occupation.
         KENTUCKY
                                           To prevent avoidable foreclosure for homeowners who have experienced loss of
                                           income due to unemployment or substantial underemployment by providing funds to
         Kentucky Unemployment
                                           reinstate, pay the household’s mortgage payments during the period of
         Bridge Program
                                           unemployment/underemployment and for two months after reemployment, if needed,
                                           up to the maximum dollar threshold for assistance of $25,000.
         MICHIGAN
                                           The Principal Curtailment will prevent avoidable foreclosures by helping homeowners
                                           who currently cannot refinance or modify their mortgages due to negative equity
         Principal Curtailment
                                           positions. Homeowners will benefit from both a restructured loan payment and the
         Program
                                           reduction in principal balance, reducing monthly payments and increasing
                                           sustainability.




                                                                                                                        April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                              70



                                   This program will prevent avoidable foreclosures by putting homeowners, who
                                   otherwise are on the brink of foreclosure, but can now afford to sustain
         Loan Rescue Program       homeownership, back on solid footing without increasing their indebtedness. In so
                                   doing, the program will stem the oversupply of foreclosed homes and short sales that
                                   dominate many markets and help stabilize the broader housing market in Michigan.
         Unemployment Mortgage     Provide mortgage payment assistance to Michigan unemployed residents, helping
         Subsidy Program           them remain successful with homeownership.
         MISSISSIPPI
                                   The goal of the HSP is to provide borrowers the time necessary to improve their
         Home Saver Program        chances of finding a job that pays them enough to cover their monthly mortgage
                                   payments.
         NEVADA
                                   The primary goal is to reduce first mortgage principal balances such that their loan to
         Principal Reduction
                                   value ratios are reduced and correspondingly, the PITI payment reduced to 43% or
         Program
                                   less of the homeowner’s gross income.
                                   The expected outcome of this program is to assist up to 2,200 families remove the
         Second Mortgage
                                   impediment of a second lien on their property such that either a short sale, refinancing
         Reduction Plan
                                   or first mortgage modification can be carried out and thus prevent a foreclosure.
                                   It is expected that at an $8,025 level of average funding per family assisted up to
         Short-Sale Acceleration
                                   1,371 families facing imminent foreclosure threat, will have the burden of their home
         Program
                                   mortgage eliminated and the threats of a default judgment removed.
                                   The MAP program’s goal is to increase the probability that a borrower and/or
                                   recipient’s family has a stronger chance of sustaining homeownership with the
         Mortgage Assistance
                                   assistance from the HHF program. The enhanced home ownership through re-
         Program (MAP)
                                   employment and job maintenance should decrease both the numbers and probability
                                   of foreclosures.
         NEW JERSEY
                                   The goal of the NJHK Program is to promote neighborhood stability in New Jersey
                                   communities by providing assistance with mortgage arrears and mortgage payments
         New Jersey Homekeeper     to eligible homeowners who, through no fault of their own, are in danger of foreclosure
         Program (NJHK)            due to a temporary loss of employment or unexpected substantial underemployment
                                   and are in the process of seeking work or job training that will enable them to resume
                                   making their mortgage payments in full.
         NORTH CAROLINA
                                   To assist 5,750 homeowners over the next 3 years. The following types of assistance
                                   will be provided:
                                   Job Search or Short-term Assistance
                                   To help homeowners while they look for a new job.
         Mortgage Payment          Job Training or Long-term Assistance
         Program (MPP-1)           To help homeowners while they complete a job training/education program to help
                                   secure a new job.
                                   Reinstatement Only or One-time Assistance
                                   To help homeowners who have found a new job but need help to bring their mortgage
                                   current.
                                   To assist 14,100 homeowners over the next 5 years. The following types of assistance
                                   will be provided:
                                   Job Search or Short-term Assistance
                                   To help homeowners while they look for a new job.
         Mortgage Payment          Job Training or Long-term Assistance
         Program (MPP-2)           To help homeowners while they complete a job training/education program to help
                                   secure a new job.
                                   Reinstatement Only or One-time Assistance
                                   To help homeowners who have found a new job but need help to bring their mortgage
                                   current due to arrearages accumulated during a period of unemployment.
                                   To assist 2,000 homeowners facing foreclosure in all 100 North Carolina counties.
         Second Mortgage           The goal of this program is to extinguish the existing second mortgage and replace it
         Refinance Program         with a 0%-interest, non-recourse, deferred-payment subordinate loan. This will reduce
         (SMRP)                    the borrower’s monthly mortgage payment and in some instances may expedite
                                   movement of a qualified applicant into a HAMP first mortgage modification process.
                                   To assist 440 homeowners facing foreclosure.
                                   The goal of the program is to decrease the number of home owners losing their
         Permanent Loan
                                   homes to foreclosure. Secondary goals include stabilization of neighborhoods and
         Modification Program
                                   protecting home values of surrounding properties.
         (PLMP)
                                   This program will provide immediate mortgage payment relief and stable long term
                                   mortgage payments for the life of the loan.



                                                                                                                  April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                 71




         OHIO
                                    The goal of this program is to prevent avoidable foreclosure for homeowners who
         Rescue Payment
                                    have experienced a temporary hardship by reinstating their past due first mortgage
         Assistance Program
                                    loans.
                                    The goal of MPA is to help unemployed and/or underemployed homeowners remain in
         Mortgage Payment           their homes and make on-time, monthly payments on their mortgages so that they
         Assistance Program         may avoid delinquency and foreclosure while seeking regular employment or applying
                                    for a mortgage modification.
         Modification with          The goal of this program is to help stabilize the Ohio housing market by helping
         Contribution Assistance    homeowners achieve affordable modifications.
         Program
                                    The goals of LEA are to:
         Lien Elimination
                                    • Help homeowners to achieve an affordable monthly payment; and
         Assistance
                                    • Reduce the probability of re-default after the lien elimination.
         Transition Assistance      The goal of TA is to allow homeowners to achieve a graceful exit from their current
         Program                    situation and avoid foreclosure.
                                    The goals of the Program are to:
                                    • Help homeowners obtain mortgage loan refinances to lower their monthly loan
         Short Refinance            payment;
         Program                    • Provide assistance to homeowners who may not be eligible for a traditional
                                    modification but cannot refinance due to a decline in their home’s value; and
                                    • Reduce the number of homeowners with negative equity.
         OREGON
         Loan Modification          To provide a quick infusion of funds that will allow for a successful loan modification.
         Assistance Program         Without these additional funds, homeowners would be ineligible for modification.
                                    The assistance provided by the Mortgage Payment Assistance Program will allow
                                    qualified borrowers to search for work or obtain job training without fear of losing their
         Mortgage Payment
                                    home. The purpose of this program is to assist borrowers until they can obtain
         Assistance Program
                                    sufficient income to resume scheduled mortgage payments or qualify for a modified
                                    mortgage payment.
                                    To provide homeowners experiencing unemployment or financial distress the
         Loan Preservation
                                    opportunity to pay arrearages and bring delinquent loans current. The program will
         Assistance Program
                                    preserve and/or maintain an existing loan and reduce risk of imminent foreclosure.
                                    To provide funds to financially distressed borrowers so they may be able to find
         Transition Assistance
                                    affordable housing while avoiding foreclosure. Additionally, funds will serve as an
         Program
                                    incentive to maintain the home’s condition prior to turning it over to a lender/servicer.
                                    The Loan Refinancing Assistance Pilot Project’s goals are to assist homeowners
         Loan Refinancing           escape acute negative equity situations, help to slow the ongoing decline in property
         Assistance Pilot Project   value, and provide approved homeowners with reliable, affordable, sustainable
                                    mortgages.
         RHODE ISLAND
         Loan Modification
                                    To help Rhode Island homeowners who cannot qualify for a HAMP modification
         Assistance for HAMP
                                    because they do not have sufficient resources to achieve HAMP requirements.
         Customers (LMA-HAMP)
         Loan Modification
                                    This program is designed to help stabilize Rhode Island homeowners and help them
         Assistance for Non-
                                    achieve an affordable modification. This assistance will, at a minimum, temporarily
         HAMP Customers (LMA-
                                    adjust a homeowner’s payment to an affordable level for a 12 month period.
         Non-HAMP)
         Temporary and
                                    To help a homeowner avoid foreclosure when faced with temporary or immediate
         Immediate Homeowner
                                    crisis.
         Assistance (TIHA)
                                    Rhode Island Housing envisions that these monies would be used to complement
         Moving Forward             other federal or lender programs designed specifically to stabilize communities by
         Assistance                 providing assistance to borrowers who have suffered a financial hardship and as a
                                    result are no longer financially able to stay in their home.
                                    To assist unemployed and substantially underemployed homeowners to remain in
         Mortgage Payment
                                    their homes and make on-time, monthly payments on their mortgages during their
         Assistance -
                                    hardship so that they may avoid delinquency and foreclosure; and to help stabilize
         Unemployment Program
                                    homeowners so that they can obtain a sustainable loan modification, if necessary,
         (MPA-UP)
                                    after they have regained full employment.




                                                                                                                      April 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                                                         72



                                              Leverage HHF dollars by reducing the principal balances of “underwater mortgages”
                                              (specifically mortgages for which the mark-to-market LTV is greater than 115%) and
                                              provide financial assistance to qualifying homeowners to remain in their homes during
         Principal Reduction
                                              this period of steep declines in value.
         Program
                                              A reduction in principal can achieve desired income and loan-to-value ratios that result
                                              in an affordable payment for a customer on the existing mortgage loan or can be used
                                              in conjunction with a loan modification.
         SOUTH CAROLINA
         Monthly Payment                      To bridge eligible borrowers across a gap in employment or other reduction in income,
         Assistance Program                   and allow them to stay current on their mortgages.
         Direct Loan Assistance               To help borrowers become current on their mortgage during or following a brief
         Program                              interruption or reduction in income and to ensure long-term affordability.
         HAMP Assistance
                                              To provide limited funding to help borrowers become eligible for HAMP.
         Program
         Property Disposition                 To assist borrowers in unrecoverable situations in transitioning from homeownership
         Assistance Program                   to rental housing.
         TENNESSEE
                                              To assist unemployed, or substantially underemployed, homeowners to remain in their
                                              homes and make monthly payments on their mortgages and mortgage related
         Hardest Hit Fund
                                              expenses such as property taxes, homeowner insurance, homeowner dues, and/or
         Program (HHFP)
                                              past-due mortgage payments (arrearages) so that they may avoid delinquency and
                                              foreclosure.
         WASHINGTON, D.C.
                                              Foreclosure prevention – The primary goal of the HomeSaver Program is to prevent
                                              foreclosures that will erode the base of homeowners in the city, which already lags
                                              behind the national average in the rate of homeownership.
                                              Synergistic interaction – The DCHFA will partner with other organizations (i.e.
                                              DOES and the Urban Institute) to define the universe of potential candidates for the
                                              HomeSaver Program, perform outreach and intake, and ultimately deliver timely
                                              assistance to prevent foreclosure. DOES is the District agency that administers the
         HomeSaver Program                    city’s UI and job training programs. The Urban Institute (the Institute) has conducted
                                              extensive research into housing issues in DC including mortgage delinquencies and
                                              foreclosures. The Urban Institute gathers data, conducts research, evaluates
                                              programs, offers technical assistance overseas, and educates Americans on social
                                              and economic issues – to foster sound public policy and effective government.
                                              Simplicity – The DCHFA will employ a HomeSaver Program design that seeks to
                                              minimize administrative costs thereby maximizing the amount of dollars available for
                                              assistance.

         Source: HFA Participation Agreements as of December 31, 2011.




                                                                                                                             April 12, 2012
F
FACTORS AFFE
           ECTING IMPLEM
                       MENTATION OF THE HARDEST
                                              T HIT FUND PRO
                                                           OGRAM          73




A
Append
     dix L – Manage
             M     ment Commen
                        C    nts




                                                                   Aprril 12, 2012
F
FACTORS AFFE
           ECTING IMPLEM
                       MENTATION OF THE HARDEST
                                              T HIT FUND PRO
                                                           OGRAM          74




                                                                   Aprril 12, 2012
F
FACTORS AFFE
           ECTING IMPLEM
                       MENTATION OF THE HARDEST
                                              T HIT FUND PRO
                                                           OGRAM          75




                                                                   Aprril 12, 2012
FACTORS AFFECTING IMPLEMENTATION OF THE HARDEST HIT FUND PROGRAM                                76




Appendix M – Audit Team Members
This audit was conducted and the report was prepared under the direction of Kurt Hyde, Deputy Inspector
General for Audit and Evaluation, and Kimberley A. Caprio, Assistant Deputy Special Inspector General for
Audit and Evaluation, Office of the Special Inspector General for the Troubled Asset Relief Program.

Staff members who conducted the audit and contributed to the report include Anita Visser, Brenda James,
Clayton W. Boyce, Sarah Reed, Beth Preiss, Carol Placek, and Adam Tabaka.




                                                                                          April 12, 2012
S
SIGTAR
     RP Hotliine
IIf you are aw
             ware of fraud, waste, abusee, mismanageement, or miisrepresentattions associatted with the TTroubled
AAsset Relief Program,
              P         pleease contact the
                                        t SIGTAR   RP Hotline.
BBy Online Form
   U          m: www.SIG
                U   U      GTARP.gov      U                     B
                                                                By Phone: Caall toll free: (8877) SIG-20009
BBy Fax: (202) 622-4559
BBy Mail:                Hotline:
                         H         Officce of the Special Inspecctor Generaal
                         for the Troub bled Asset Relief
                                                   R      Prograam
                                                rd
                         18801 L Street.,, NW, 3 Flo
                                                   oor
                         Washington,
                         W             D.C.
                                       D 20220

P
Press In
       nquiries
IIf you have an
              ny inquiries, pllease contact our
                                            o Press Offiice:
                                                                      TTroy Gravitt
                                                                      DDirector of Communication ns
                                                                      TTroy.Gravitt@
                                                                                   @treasury.govv
                                                                      2202-927-89400

L
Legislattive Affaairs
F
For Congressional inquiries, please contacct our Legislattive Affairs O
                                                                      Office:
                                                                       JJoseph Cwikliinski
                                                                       DDirector of Leegislative Affaairs
                                                                       JJoseph.Cwikliinski@treasuryy.gov
                                                                       2202-927-91599

O
Obtainin
       ng Copiies of Teestimon
                             ny and R
                                    Reports
T
To obtain copies of testimo
                          ony and reportts, please log on
                                                       o to our webbsite at www.SSIGTARP.govv. 
                                                                              U                    U




                                                                                                            Aprril 12, 2012
